<html>
<title> - NOMINATION OF JAMIE RAPPAPORT CLARK</title>
<body><pre>[Senate Hearing 105-151]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-151


 
                  NOMINATION OF JAMIE RAPPAPORT CLARK

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   ON

 THE NOMINATION OF JAMIE RAPPAPORT CLARK TO BE DIRECTOR, U.S. FISH AND 
                            WILDLIFE SERVICE


                               __________

                             JULY 16, 1997


                               __________


  Printed for the use of the Committee on Environment and Public Works





                     U.S. GOVERNMENT PRINTING OFFICE
 43-036 CC                   WASHINGTON : 1997
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
DIRK KEMPTHORNE, Idaho               FRANK R. LAUTENBERG, New Jersey
JAMES M. INHOFE, Oklahoma            HARRY REID, Nevada
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Connecticut
TIM HUTCHINSON, Arkansas             BARBARA BOXER, California
WAYNE ALLARD, Colorado               RON WYDEN, Oregon
JEFF SESSIONS, Alabama
                     Jimmie Powell, Staff Director
               J. Thomas Sliter, Minority Staff Director

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 16, 1997
                           OPENING STATEMENTS

Allard, Hon. Wayne, U.S. Senator from the State of Colorado......     7
Baucus, Hon. Max, U.S. Senator from the State of Montana.........     3
Chafee, Hon. John H., U.S. Senator from the State of Rhode Island     1
Kempthorne, Hon. Dirk, U.S. Senator from the State of Idaho......     4
Thomas, Hon. Craig, U.S. Senator from the State of Wyoming.......     6
Wyden, Hon. Ron, U.S. Senator from the State of Oregon...........     5

                               WITNESSES

Clark, Jamie Rappaport, nominated by the President to be 
  director, U.S. Fish and Wildlife Service.......................     8
    Prepared statement...........................................    23
    Responses to additional questions from:
        Senator Allard...........................................    29
        Senator Boxer............................................    33
        Senator Chafee...........................................    24
        Senator Inhofe...........................................    31
        Senator Sessions.........................................    39
        Senator Smith............................................    35
        Senator Thomas...........................................    27

                                 (iii)




                  NOMINATION OF JAMIE RAPPAPORT CLARK

                              ----------                              


                        WEDNESDAY, JULY 16, 1997

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
406, Senate Dirksen Building, Hon. John H. Chafee (chairman of 
the committee) presiding.
    Present: Senators Chafee, Kempthorne, Thomas, Allard, 
Baucus, and Wyden.

OPENING STATEMENT OF HON. JOHN H. CHAFEE, U.S. SENATOR FROM THE 
                     STATE OF RHODE ISLAND

    Senator Chafee. Good morning, everyone. We want to welcome 
all here today.
    This is a hearing on the nomination of Jamie Rappaport 
Clark for the position of director of the Fish and Wildlife 
Service. The President nominated Ms. Clark on July 9, and it is 
my intention to move quickly on this nomination, hopefully to 
allow the Senate, if they should so choose, to confirm this 
nomination before the August recess.
    I am delighted to introduce Ms. Clark to the panel.
    I understand you are accompanied by your husband. Is he 
here?
    Ms. Clark. Yes, sir, here is my husband, Jim.
    Senator Chafee. Well, I understand that you have gone the 
full measure here, and that you were married on a wildlife 
refuge.
    Ms. Clark. Yes, I was.
    Senator Chafee. Where does that come under the purposes of 
the Refuge Act?
    [Laughter.]
    Ms. Clark. I can assure you, it was a ``compatible use.''
    [Laughter.]
    Senator Chafee. Compatible use. Well, we won't carry that 
any further.
    Now, if confirmed, Jamie Clark will be responsible for 
developing and carrying out policies to conserve, protect, and 
enhance the Nation's fish and wildlife and their habitats. A 
number of challenging tasks fall on the shoulders of the Fish 
and Wildlife Service Director, including the management of the 
National Wildlife Refuge System; implementation of the 
Endangered Species Act; fish hatchery management; recreational 
fishing programs; management of nonindigenous and exotic 
species; conservation and management of migratory waterfowl, 
and wild birds.
    The breadth of management tools that the service uses to 
carry out its mission is no less impressive. The service does 
its job through grant programs, land acquisitions, and user fee 
programs, such as the ``duck stamp.''
    I am pleased to report that Ms. Clark is an outstanding 
candidate for the tasks at hand. Throughout her educational and 
professional experiences, she has been involved on a daily 
basis with the principles of fish and wildlife management. She 
worked with the Fish and Wildlife Service for over 8 years, 
both at the regional level and at headquarters. For the past 4 
years of her tenure she has held the position of assistant 
director of Ecological Services.
    In her current position as assistant director she has 
worked closely with and reported directly to both the acting 
director of the Service, John Rogers, and former director, 
Mollie Beattie in the implementation of the Endangered Species 
Act and habitat protection. She has also overseen habitat 
restoration programs, wetlands protection, and other Service 
initiatives involving natural resource protection.
    Before joining the Fish and Wildlife Service, Jamie Clark 
was the lead technical authority for fish and wildlife 
management on U.S. Army installations worldwide.
    It's my understanding that you are--I hate the term, ``Army 
brat''--that your dad was in the service?
    Ms. Clark. Yes, Mr. Chairman, he was in the Army.
    Senator Chafee. And you grew up, moving around? He was a 
professional military officer, full-time?
    Ms. Clark. Mr. Chairman, he was in the Corps of Engineers, 
and I spent my childhood years moving every year and a half.
    Senator Chafee. From 1984 to 1988 she managed the Natural 
and Cultural Resources Program within the National Guard. She 
was also a research biologist for the U.S. Army Medical 
Research Institute and worked for the National Institute for 
Urban Wildlife as a wildlife biologist.
    Ms. Clark's educational background is equally impressive 
and suits her well for the position for which she has been 
nominated. She holds a master's degree in wildlife ecology from 
the University of Maryland and a bachelor's degree in wildlife 
biology--is that also from the University of Maryland?
    Ms. Clark. It's from Towson State University.
    Senator Chafee. Towson State, in Maryland.
    She has worked closely with the committee staff and 
committee members on the Endangered Species Act, and I have 
heard nothing but outstanding reports of your ability to work 
with the Administration and Congress. All of this will serve 
you well, if confirmed.
    The Fish and Wildlife Service is an agency with the 
wonderful but difficult task of serving as an advocate for fish 
and wildlife. It must protect these public resources in the 
face of much criticism and question. The Service is charged 
with fulfilling its own mission in light of competing and 
sometimes conflicting mandates of other Federal agencies. It 
also must address the contentious issues of private property 
rights, water rights, and takings. The Service has done a 
remarkable job in recent years of developing initiatives that 
deal with many of these issues. The internal guidance documents 
for permits; the new safe harbor, candidate conservation, and 
``no surprises'' policies; the policy for Native Americans, and 
the streamlining initiatives for Federal agencies have all led 
to better implementation of the Endangered Species Act, better 
public relations and, ultimately, better protection for the 
species.
    So I am delighted that you have been nominated for this 
position. It seems to me that you have the experience, the 
insight, and the strength to lead the Fish and Wildlife Service 
to continue these initiatives that I have mentioned and to 
develop new ones to face the challenges ahead.
    Senator Chafee. Senator Baucus.

  OPENING STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE 
                        STATE OF MONTANA

    Senator Baucus. Thank you very much, Mr. Chairman.
    I, also, want to welcome Ms. Clark to this hearing, as well 
as her husband, Jim.
    I understand that your parents are not here, and it's sort 
of a bittersweet moment that they're not here, because they 
rarely--if ever--take vacations, and they are now on a 
vacation, and you did not want to draw them away from their 
vacation.
    [Laughter.]
    Senator Baucus. But I know that if they were here, they 
would be extremely proud of you. We all wish them well, too.
    Mr. Chairman, it is clear to me that Ms. Clark has the 
background and experience for this job, but the fact, as you 
pointed out, that she married a wildlife biologist at a 
national wildlife refuge really shows her commitment to this 
line of work.
    She has also held a wide range of positions at the Service, 
and I believe that this has given her a solid knowledge of how 
the agency works. I hope it also has given her a few ideas on 
how the agency can work even better.
    It is a tribute to her performance that President Clinton 
has recognized a career civil servant to lead the Service at 
this time. That doesn't always happen, and I'm very happy that 
it did happen this time.
    As you mentioned, Mr. Chairman, the Service faces major 
challenges, not the least of which is helping this committee 
work through the reauthorization of the Endangered Species Act. 
I think we on this committee recognize that the ESA needs to do 
a better job of protecting species and being easier for 
landowners to deal with; those are the twin demands. It is 
clear that Ms. Clark understands that. Since last year, she has 
demonstrated her expertise and sound judgment time and time 
again as she has helped you, Mr. Chairman, Senator Kempthorne, 
Senator Reid, and me to deliberate over various legislative 
reforms to the ESA, and I thank you for that.
    Furthermore, as assistant director of Ecological Services, 
she has been instrumental in implementing the various 
administrative reforms that have benefited both the landowners 
and the species, so I think she recognizes the twin demands 
that reauthorization must satisfy to help us achieve our goal.
    Mr. Chairman, I appreciate the timeliness with which you 
have scheduled this hearing. The President nominated her only 1 
week ago; that's very fast and very speedy, and much faster 
than a lot of nominations and appointments, as we all know. I 
hope this is a harbinger of a speedy vote in this committee and 
on the floor. I look forward to her testimony today and to 
working with her in the future.
    I might add, Mr. Chairman, that there is a lot of interest 
in this nomination. At 8:15 this morning there was somebody 
standing in line to come into the hearing room.
    So you have one person at least, Jamie, who is very 
interested in your nomination, and I don't think it was your 
husband.
    [Laughter.]
    Senator Baucus. Thank you.
    Senator Chafee. Thank you, Senator.
    Senator Kempthorne, I want to thank you very much for being 
willing to chair this hearing when it appeared that I might not 
be able to be here, so thank you.

 OPENING STATEMENT OF HON. DIRK KEMPTHORNE, U.S. SENATOR FROM 
                       THE STATE OF IDAHO

    Senator Kempthorne. Happy to do so, Mr. Chairman. Thank you 
very much.
    Mr. Chairman, I first met Jamie Clark a few years ago when 
she came to my office with former Director Mollie Beattie on an 
official visit, and I want to say that since then Jamie has 
worked closely with me and my staff in our effort to 
reauthorize the Endangered Species Act. Jamie has distinguished 
herself as someone who is able to find innovative solutions to 
difficult problems, to listen to others, and to think 
creatively. I value that greatly.
    I look forward this morning to hearing about Ms. Clark's 
plans for the Fish and Wildlife Service. Idaho has over 65 
percent of its land in Federal ownership, so we have an up-
close and personal experience with the Fish and Wildlife 
Service and other Federal agencies. What isn't owned by the 
Federal Government is controlled in one way or another through 
the Endangered Species Act. Idaho currently has 26 endangered 
and threatened species, so the Fish and Wildlife Service plays 
a large role in the lives of virtually every Idahoan.
    I will be particularly interested to hear Jamie's 
perspective on the reauthorization of the Endangered Species 
Act. Senator Chafee, Senator Baucus, Senator Reid, and I have 
been working on a comprehensive bill to improve the Endangered 
Species Act since January 1995. The Administration has been 
involved from the beginning, and Jamie has played an important 
role in our discussions.
    On a personal note, I can tell you that we have felt her 
absence from the negotiating table this year. I hope that Jamie 
will address her views on ESA reform and the role that she can 
play to make an improved ESA the law of the land.
    I will also be asking Ms. Clark to address some of the very 
difficult wildlife issues that we are facing in the State of 
Idaho. In just the last month alone, the Fish and Wildlife 
Service has issued proposed rules on the reintroduction of the 
grizzly bear and the listing of the bull trout. Either one of 
these decisions, if finalized, could have a substantial impact 
on the lives, again, of virtually every Idahoan. Because of the 
very real impact of these decisions, I hope the Service will 
make a greater effort to work together with the State of Idaho 
and its stakeholders before it takes any final action.
    So, Ms. Clark, I look forward to your testimony, and Jamie, 
again, you are someone that I think will be very good in this 
position.
    Senator Chafee. Thank you, Senator.
    Senator Wyden.

  OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM THE 
                        STATE OF OREGON

    Senator Wyden. Thank you, Mr. Chairman. I want to commend 
you for holding this important hearing and moving ahead in a 
timely way. Ms. Clark is one of those rare people who gets high 
marks from just about everybody who has worked with her, and I 
am pleased to see the bipartisan support.
    Mr. Chairman, I am especially interested in working with 
Ms. Clark on the approach that Oregon is moving ahead with, 
where we are pioneering in the area of the Endangered Species 
Act. Our State is going forward with a very different approach 
in terms of wildlife management. Recently the Federal 
Government indicated that Oregon was not going to have the 
coastal salmon listed on the Endangered Species Act because our 
State was going to be given a chance to try this new approach.
    What the approach essentially says is that our State, with 
respect to the coastal salmon, will meet every single 
requirement of the Endangered Species Act, every requirement--
all the biological requirements, all of the requirements of the 
Act--but that we want the opportunity to first try a home-
grown, locally driven approach to meeting the requirements of 
the Act.
    I will tell you, Mr. Chairman and colleagues, that in our 
State this has people working together who never worked 
together. In the past, the people who are now working together 
on this approach with respect to the coastal salmon were 
generally part of what I call the ``lawyers' full-employment 
program,'' where they spent most of their day in Federal Court 
suing each other. This now has people working together, and I 
think it provides a nationwide precedent for trying something 
very creative, very fresh.
    By the way, along the lines of what Senator Kempthorne has 
been talking about in a number of fora over the years, and I am 
interested in Ms. Clark's views on this--Ms. Clark, as you 
know, we are looking at watershed councils and a variety of 
other approaches for pursuing these new policies. There may be 
other ways to go about doing it, but I am very hopeful on your 
watch, and we are looking forward to seeing you confirmed in 
this position, that you will really use this position as a kind 
of ``bully pulpit'' to push for these kinds of new home-grown, 
locally driven solutions.
    Mr. Chairman, I thank you for the time and I look forward 
to working with you and Senator Baucus and Senator Kempthorne 
and others who have been involved in this statute for a number 
of years.
    Senator Chafee. Thank you, Senator.
    Senator Thomas.

 OPENING STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR FROM THE 
                        STATE OF WYOMING

    Senator Thomas. Thank you, Mr. Chairman.
    Welcome, Ms. Clark. It's nice to have you here. I had read 
of your background and was impressed, but I am more impressed 
after your agent has been touting you here. I think that's 
fine.
    The issue, of course, is where the agency will go and how 
the agency will behave with respect to the problems that we 
have. Of course, I remember John Turner from Wyoming being the 
director not long ago; John was a good friend and continues to 
be.
    It seems to me that one of the challenges before us is to 
take a look, as we have tried rather unsuccessfully over the 
last couple of years, at some of the environmental laws that 
have been in place for some time, 20 years or so, and learn 
from that 20 years how we can make them better--for instance, 
the Endangered Species Act. But we haven't had a lot of support 
from the Administration to do that, and I think we ought to try 
to do it, whether it's wetlands or endangered species or clean 
water or natural management of wildlife in National Parks or 
brucellosis, which is very much a part of your problem in 
places like the Elk Refuge in Jackson, WY. We need to come to 
some solutions, and we haven't done that. We've talked a lot 
about it, but we really haven't.
    You certainly have a good background, and I'm enthusiastic 
about your nomination, but I do say that there are some things 
we have to move forward on; grizzly bears, for example--when 
are we going to delist grizzly bears, when all the scientific 
evidence shows that we are much beyond the goal that we 
intended, but we continue not to do it? The same is true with 
the management of wolves, artificially reintroduced into the 
park. Now, what are we going to do when they go out of the 
park? We haven't gotten much support from your agency in terms 
of how we're going to do it. Our Game and Fish believes that 
the Fish and Wildlife Service should manage them until they are 
delisted. I don't know exactly how that will work.
    So I guess all I'm saying to you--and I hope you will deal 
with some of those issues in your statement--is that there are 
some things to do, and frankly, not everyone is quite as happy 
as others in terms of the performance of this agency. One of 
them is dealing with local agencies. We hear a lot of talk 
about partnerships, but when it comes down to the bottom line, 
it's a one-way partnership. For instance, we have some water 
projects in Wyoming in which the Corps of Engineers and the 
Forest Service and the Fish and Wildlife Service cannot agree, 
and it's gone on for years, and the local people pay the tab. 
Now, it shouldn't be that way. So instead of just talking about 
partnerships, I hope that we indeed have some.
    So I certainly am impressed--and it's nothing to do with 
you personally, but I don't think that all is perfectly well 
with the agency in terms of its working with other people. It 
seems to me that that's probably the key. The Senator from 
Oregon talks about doing some things there; well, I hope all 
the States have some opportunities. We are quite different in 
the way we are structured. From Rhode Island to Wyoming it's a 
different operation and we need to recognize that.
    So I'm glad that you are here. I look forward to your 
statement, and thank you.
    Senator Chafee. Thank you, Senator.
    Senator Allard.

 OPENING STATEMENT OF HON. WAYNE ALLARD, U.S. SENATOR FROM THE 
                       STATE OF COLORADO

    Senator Allard. Thank you, Mr. Chairman.
    Yesterday I met with Ms. Clark and appreciated her candor 
and straightforward answers to my questions. I personally don't 
feel there's any problem with the confirmation, but I do want 
to bring up several issues relating to Colorado here in my 
opening remarks.
    First, on the recent agreement reached in the principal 
States of Colorado, Nebraska, and Wyoming, and the Department 
of the Interior to protect endangered species on the Central 
Platte River, this agreement has taken a long time to reach. 
While the principles are agreed to, Fish and Wildlife will 
review the program under NEPA over the next 3 years. This 
review needs to be thorough and efficient, and I am sure that 
the nominee and many members of this committee can share plenty 
of examples of how NEPA has run out of control, wasting time 
and money, while doing nothing for the environment and the 
parties involved.
    I will be paying very close attention to this process as it 
moves forward. Should the NEPA turn out to be overly cumbersome 
and decidedly inefficient, I will not support having Federal 
dollars continuing to support a process that ceases to be 
helpful to the species and to the water users of that drainage 
basin.
    Second, to date the Colorado River Recovery Program has 
been successful in garnering the support of divergent groups 
and numerous States. I want to be assured that if the 
additional $100 million in State and Federal money is spent, it 
will provide certainty to water users under section 7. The end 
result of all the money that we have spent and all the money 
that we may spend should be that Colorado is assured that we 
can develop our apportionment under the Colorado River Compact.
    To that end, I hope, Ms. Clark, you will be able to tell me 
today whether the programmatic biological opinion being 
prepared on the program will answer this question. Also, will 
Fish and Wildlife accept the program for section 7 
consultations?
    Again, I want to be very clear that my support for this 
program is based upon it providing certainty and uniformity to 
Colorado water users, and if it does not provide that function, 
it merely becomes an unnecessary public works project that we 
can't afford.
    Finally, I want to address a letter that the Acting Fish 
and Wildlife Service Director, John Rogers, wrote to the Farm 
Service Agency last November. In that letter he addressed a 
section of the Farm Bill that I worked very hard on. This 
section limited the ability of the USDA to place an 
environmental easement on active farmland or cropland that was 
placed in inventory; in other words, it had gone through 
foreclosure and the Government had ended up with it.
    It is my view that Mr. Rogers' letter was attempting to 
undercut Congressional intent by arguing that certain types of 
agricultural land were, in fact, not agricultural land, and 
therefore should have easements placed on them, thus lowering 
the productivity and value of that land. I hope that you will 
look over this letter and the law and actually go back into the 
committee testimony--I was chairman of that subcommittee of the 
Agriculture Committee on the other side--and look at those 
comments. I think you will find that the Congressional intent, 
certainly my intent, was to use a broad-term approach to what 
we call ``agriculturally productive land.'' In this letter he 
is saying that haying--you know, there is a lot of haying in 
New Mexico, Wyoming, Colorado, and Nebraska--that it would not 
be considered farmland. The clear intent of that committee--and 
certainly mine, I believe, if you look at the record--is that 
that was designed to be classified as agricultural land. In 
that letter from Fish and Wildlife Service to Mr. Butrock with 
the Farm Service Agency, from Acting Director John Rogers, he 
tries to make the interpretation that we had not intended for 
that to be classified as farmland. I think that is a very 
important issue for those States that put up a lot of native 
hay.
    So I would appreciate your taking a close look at those 
issues. I felt you were very responsive to our concerns, and I 
look forward to working with you in the future.
    Senator Chafee. Thank you, Senator.
    Now, Ms. Clark, if you want to proceed with your statement, 
we will look forward to it.

STATEMENT OF JAMIE RAPPAPORT CLARK, NOMINATED BY THE PRESIDENT 
           TO BE DIRECTOR, FISH AND WILDLIFE SERVICE

    Ms. Clark. Thank you, Mr. Chairman. Good morning, Mr. 
Chairman and all of you on the committee.
    It is a great honor for me to be nominated by President 
Clinton as Director of the Fish and Wildlife Service, the 
Nation's premier Federal fish and wildlife conservation agency, 
and to have that nomination considered here today by the 
committee.
    It is also a privilege as a career civil servant to be 
considered for this position from within the ranks of our 
agency.
    I have met with many of you over the past few days and 
found that we have significant common beliefs in the importance 
of conserving our natural heritage. I haven't had the chance to 
meet with all of you, but I am committed to doing so, and I am 
available to meet with any of you if your time permits.
    If I am confirmed, I look forward to continuing to work 
together with all of you over the next few years, focusing on 
our common commitment to fish and wildlife conservation. I care 
deeply about what we do at the Fish and Wildlife Service, and I 
am committed to our mission to protect, conserve, and enhance 
fish and wildlife and their habitats.
    I am very proud of the job that we do. Our 7,000 employees 
are dedicated, motivated, and professional. They represent the 
best tradition of public service. Together we continue to work 
to protect that delicate balance of living in association with 
our natural environment.
    Love of nature and the outdoors has been a major force in 
my life since I was a small child. As you know, I grew up in 
the military, in the Army, moving on an average every year and 
a half. That certainly brought many challenges as a child, but 
it also gave me opportunities to see many areas of the United 
States. I fondly remember exploring spectacular open spaces on 
horseback, seeing new birds and other wildlife, and discovering 
unique habitats.
    My passion for nature and wildlife eventually led me into 
the field of wildlife biology. My studies ranged from peregrine 
falcon reintroductions in northern Maryland, to my graduate 
thesis that involved working with hunters to evaluate white-
tailed deer populations to ensure optimum herd density.
    I learned first-hand the role of hunting as an effective 
wildlife management tool, and I share with hunters, anglers, 
and other outdoor enthusiasts an appreciation of wildlife that 
comes from long hours in the field observing nature.
    As we have discussed this morning, I even married a 
wildlife biologist. The ceremony took place on Matagorda Island 
National Wildlife Refuge off the coast of Texas, where my 
husband, Jim, was the refuge manager. Jim is a nature 
photographer and writer and we spend all of our available free 
time exploring our National Wildlife Refuges, our National 
Parks, and forests, looking for new places to observe nature 
and, of course, new scenes to capture on film.
    During my last 8 years with the Service I have been part of 
an agency undergoing significant change. Although the Service 
remains committed to its statutory obligations and mandates, 
like the Migratory Bird Treaty Act and the Endangered Species 
Act, I believe--as others do--that we need to continue to look 
for new and innovative ways to achieve species and habitat 
conservation. Most importantly, we have greatly expanded our 
work with partners outside the Service, whether they are State 
wildlife agencies, local governments, sportsmen's 
organizations, conservation groups, corporations, or individual 
private citizens.
    In the course of this transformation, the Service is 
learning to assume many different roles, depending on our 
situation. Our State, Federal, tribal, and private partners 
have great capabilities, as many of you have mentioned this 
morning, to provide leadership and assistance in the management 
and recovery of our natural resources. We recognize this, and 
we are refining our ability to be a team player--knowing when 
to lead, when to assist, or when to follow, to accomplish 
common goals. I expect this process will continue.
    I realize many folks associate me with endangered species 
programs. Although my years with the Service have focused 
primarily on habitat restoration, environmental contaminants, 
and endangered species conservation, my early years as a 
resource professional were spent working for the National Guard 
Bureau and the Department of the Army addressing land use 
management and environmental planning issues. I was responsible 
for developing and implementing fish and wildlife conservation 
practices Army-wide, emphasizing integration of wildlife 
management activities with complex military missions.
    I spent much of my time in the field, visiting military 
installations throughout the country, working to balance 
wildlife conservation needs with military readiness objectives. 
I also developed land management programs to ensure that 
military lands continue to support both wildlife conservation 
and military needs. I worked hard with military trainers and 
engineers, as well as with other Federal agencies and 
conservation organizations to ensure that neither military 
training nor wildlife habitat requirements were compromised.
    From these experiences early in my career I learned the 
importance of listening to all sides, effectively communicating 
specific needs, and working collaboratively with others to 
achieve multiple goals on land supporting competing demands.
    The Fish and Wildlife Service is widely recognized as the 
national and international leader in wildlife conservation, 
and, if confirmed, I will continue to ensure that that hard-
earned reputation is maintained and enhanced. Again, to do 
this, an ever-growing emphasis on partnerships and looking at 
the big picture is essential. With more than 1,000 species on 
the list of endangered and threatened species, I know too well 
the feeling of frustration and failure associated with each new 
addition to the list. There is no way that we in the Service or 
any other public agency can single-handedly conserve our 
Nation's wildlife resources. We must work hard to leverage our 
own resources and our expertise with those of others to effect 
changes on the ground.
    Since transferring to the Fish and Wildlife Service in 
1989, I have spent considerable time looking for new ways to 
achieve wetlands conservation, to address and recover declining 
species, to restore degraded habitats, and to address the 
increasing concern about the effect of environmental 
contaminants on our natural resources. I have worked in 
partnership with folks like the ranchers in southern Arizona 
and New Mexico through the Malpai Borderlands Group; private 
landowners on Hawaii's Big Island, to prevent the extinction of 
the Hawaiian crow, while preserving the integrity of their 
commercial farming and ranching operations; and with the States 
of Illinois, Indiana, and Kentucky to balance the economic 
needs of the coal mining industry with wildlife conservation.
    Again, all of these experiences have reinforced in me the 
value and importance of partnerships. Each of these 
partnerships was characterized by genuine trust, cooperation, 
mutual respect, and a desire for economic and environmental 
security. I believe the future of fish and wildlife 
conservation depends on collaborative partnerships such as 
these.
    The Service also must continue our concerted efforts to 
reach out to the public and to important constituencies with a 
stake in our fish and wildlife resources. I have participated 
in numerous partnership efforts and firmly believe that 
involving stakeholders and other agency expertise early on 
reaps long-term benefits for fish and wildlife resources and 
the economy. As the Service gains experience in this way of 
doing business, I believe we will all realize the expanded 
skills that we must master to learn to listen more effectively, 
to work as a team player, to be open-minded, and to be prepared 
to take whatever approach is most effective in accomplishing 
our task.
    I am convinced that as people better understand the 
connection between ecosystem health and quality of life, our 
success at managing for ecosystems and ensuring economic 
viability will continue to increase. The Service needs to 
continue to communicate to others the fundamental message that 
the fate of wildlife and humans alike is linked to the well-
being of the environment around us.
    The Service is dedicated to addressing change, not only in 
how we explore new ways to conserve and manage our wildlife 
resources, but also in recognizing the importance of a 
workforce reflective of our Nation's citizenry. Increasing the 
diversity of our workforce is an important element in improving 
our efforts to develop unique and innovative approaches and 
strategies for wildlife conservation. A skilled workforce--
diverse in cultures, experiences, and ideas--is equipped to 
buildupon traditional and successful approaches by identifying 
new and fresh ideas for addressing conservation issues. The 
richness of this experience is an asset, and its absence is an 
enormous liability. I believe I can help the Service continue 
to work toward its goal of a diverse and skilled workforce.
    Americans are passionate about wildlife, and that passion 
fuels the Fish and Wildlife Service. This is an exciting time 
to be at the helm of this agency. If confirmed as Director, I 
look forward with great enthusiasm and excitement to the 
challenge of leading an agency dedicated to conserving, 
protecting, and enhancing fish and wildlife and their habitats 
for the continuing benefit and enjoyment of the American 
people. I pledge to work with you, the American public, other 
Federal, State, tribal, and private entities, and with the 
outstanding employees of the Service to continue protecting our 
Nation's natural heritage for generations to come.
    Senators thank you again for the honor of your 
consideration.
    Senator Chafee. Thank you very much, Ms. Clark.
    Now we will have some questions. We will have 6 minutes 
each, and everybody will get their chance, and then we'll go 
around again quickly.
    I have several questions I would like to ask you.
    Are you willing, at the request of any duly constituted 
committee of the Congress, to appear in front of it as a 
witness?
    Ms. Clark. Yes, Mr. Chairman, I am.
    Senator Chafee. Do you know of any matters which you may or 
may not have thus far disclosed which might place you in any 
conflict of interest if you are confirmed in this position?
    Ms. Clark. No, Mr. Chairman.
    Senator Chafee. Now, first of all, I want to join with you 
in your praise of the Fish and Wildlife Service, 7,000 
employees who are dedicated, motivated, and professional. It 
has been my opportunity to work with them, both at home and 
around the country, and I think they are an outstanding group 
and we're lucky to have them. It's right for you, as the head 
of the whole organization, to be proud of this Service and do 
everything you can to help them increase in their skills and 
educational qualities.
    You mentioned that you have seen cooperation and you talked 
about cooperation with the other players. I want to stress 
that. It isn't that the Service hasn't been doing it, but I 
just want to urge you on in working with the State fish and 
wildlife organizations, in working with private foundations 
that will donate land--the Nature Conservancy, for example--and 
through that cooperation, in my State, anyway, we have been 
able to acquire substantial pieces of open land that would not 
otherwise be available. Frequently we have the situation where 
the Nature Conservancy and other private foundations, with the 
State, will fund the purchase of additional parcels of land 
contiguous to fish and wildlife areas, with the Fish and 
Wildlife Service subsequently being responsible for the 
policing of the areas and the protection of them because the 
Nature Conservancy, for example, doesn't have the personnel to 
be able to do that.
    You mentioned that you have seen the restoration of 
wetlands. I, myself, had the opportunity--Senator Faircloth and 
I and some others went down to see some wetlands restoration, 
so-called ``mitigation banking,'' just south of the Potomac 
here, down toward Fredericksburg. What's your view on that? Do 
you think it's been pretty successful?
    Ms. Clark. Mitigation banking?
    Senator Chafee. Well, just the restoration of wetlands. 
Then follow it on with the mitigation banking.
    Ms. Clark. Well, Mr. Chairman, we have had numerous 
positive successes with wetlands restoration, whether we're 
restoring degraded wetlands or enhancing existing wetlands. 
It's through programs like our North American Waterfowl 
Management Plan and the grants under the Wetlands Conservation 
Act, our Partners for Wildlife Program, the work that we're 
doing on our National Wildlife Refuges, as well as our 
activities with other Federal agencies, that I believe we have 
achieved enormous success with wetlands conservation.
    However, I do believe we have a long way to go. We still 
have wetlands--particularly forested wetlands--that are in 
decline, and I think there are numerous opportunities for us to 
continue to work towards the goal of conserving and restoring 
wetlands.
    Mitigation banking is an exciting opportunity. It focuses 
on leveraging existing wetlands and to recovering wetlands 
complexes, so it has been an important and valuable tool in 
wetlands conservation, if applied properly.
    Senator Chafee. You think it works pretty well?
    Ms. Clark. It has the opportunity to work pretty well. It 
has----
    Senator Chafee. Have you ever seen one that really works? 
Have you ever seen a restored wetlands that you think is nearly 
up to its pristine situation?
    Ms. Clark. I have not myself, but I have listened to 
reports of them.
    The challenge for us in conserving or restoring wetlands is 
whether we have restored the functions and values. It's not 
just making another wet area in the environment; it's whether 
we restore the functions and values. There is a lot of science 
and research going into wetlands reestablishment, and I remain 
optimistic that it can be done.
    Senator Chafee. Now, as Senator Kempthorne mentioned, we 
appreciate the work you've done on the Endangered Species Act 
reauthorization that we are trying to do here, with Senator 
Baucus and Senator Reid and Senator Kempthorne and myself. So 
you have been spending a lot of time on that and, of course, 
the National Wildlife Refuge bill, which passed the House in a 
vote that sounds impossible, 407 to 1. I don't know who that 1 
was. We'll get to that here, too, very shortly.
    Is there any other legislation that you want to bring to 
our attention that you've been working on?
    Ms. Clark. Well, I have been working----
    Senator Chafee. Those are two pretty big ones right there, 
so don't feel you have to come up with another one. I'm just 
curious.
    [Laughter.]
    Ms. Clark. That's a pretty good day job for me.
    [Laughter.]
    Ms. Clark. The agency, though, has certainly been involved 
in many other legislative initiatives, whether it's the 
reauthorization of Superfund, whether it's preparing for Clean 
Water Act reauthorization, Migratory Bird Treaty Act issues; 
but certainly, at the top of our list has been reform of the 
Endangered Species Act and passage of organic legislation for 
the Refuge System.
    Senator Chafee. All right.
    Senator Baucus.
    Senator Baucus. Thank you, Mr. Chairman.
    Ms. Clark, I just want to mention a project that occurred 
in Montana which impressed me very, very much----
    Senator Chafee. Impressed, or depressed?
    Senator Baucus. Impressed.
    [Laughter.]
    Senator Baucus. Very much. It was largely at the behest of 
the Fish and Wildlife Service, and it's called Blackfoot 
Challenge. You may know about it.
    Almost once a month I have a workday at home in Montana. I 
show up someplace at 8 o'clock with my sack lunch, and I'm 
there to work all day long at this job, whether it's waiting 
tables, working in sawmills, mines, nursing homes, whatever it 
is. One day I worked with Rick Foot at the Rick Foot Ranch in 
the Blackfoot Challenge Program. As you know, the Blackfoot 
Challenge Program is an effort by concerned people in the Big 
Blackfoot Drainage on the Rick Foot Ranch to reroute the 
tributary of the Big Blackfoot going through his place, to 
allow bull trout to spawn. In the old days ranchers would just 
plow right through those streams, and the water would run fast 
and the trout couldn't spawn.
    But the Fish and Wildlife Service has been working for 
years and years, building up the trust of the people in the 
area. You have two wonderful people in the Service who are 
based out of Great Falls, MT, and for a couple of years they 
would sit down with the ranchers at the local bars and have 
beer together, just talking over things, and gradually, slowly 
but surely, they would get the trust of the ranchers; and after 
the ranchers, some of the townspeople; and then the State 
government, and all concerned.
    The day I was there we had a backhoe tractor and we were 
rechanneling. We were planting willows and putting in some big 
rocks and doing all we could to just help change this channel.
    I mention this because this was an example of cooperation. 
Essentially, these people worked on this project because those 
higher up weren't doing the job; that is, the heads of the 
agencies weren't talking to each other, whether it was the 
State of Montana or the Fish and Wildlife Service or whatnot, 
so they, down at the lower echelons, decided to take it upon 
themselves just to do it. I guess they got the blessings of 
those above, because they all sort of knew each other. Some at 
first were very suspicious of each other, but gradually the 
trust was built up, and it has worked out very, very, very 
well. I mention it also because when I talked to the two Fish 
and Wildlife Service people, I said, ``Boy, this is great. Why 
isn't there more of this?'' And the answer I got was, ``Well, 
gee, there could be more of this; but, you know, we're just a 
little part of the Fish and Wildlife Service budget. We don't 
get very much.''
    I've forgotten the name of their part----
    Ms. Clark. The Partners for Wildlife Program?
    Senator Baucus. It could have been. I am putting in a big 
plug for these people and this section of the Fish and Wildlife 
Service because they are doing what I think should be done. 
It's at the local level; not Washington, not Helena, MT, but 
just the folks locally getting the job done the way they want 
it done and the way that works. I just urge you to keep that 
up. It works very, very well, at least in my experience in 
Montana.
    Can you comment on the project that I'm talking about, if 
you know about it, or the part of the Fish and Wildlife Service 
whose mission it is to try to put these cooperative plans 
together?
    Ms. Clark. Well, I have heard great things about the 
Blackfoot Challenge. It serves as one of our models for 
partnerships in the Fish and Wildlife Service, working 
collaboratively with all the constituents and stakeholders that 
you mentioned.
    I can speak about the Partners for Wildlife Program. It's 
under my organizational responsibility today. The Partners 
Program and the discussion that you just had about partnerships 
is what I believe is very much indicative of our entire agency, 
whether it's our Partners Program, our North American Program, 
our employees in the National Wildlife Refuge System, our fish 
hatcheries, in local ecological services or management 
assistance offices.
    As I said in my statement, it's part of our trend towards 
more collaborative partnerships for conservation. The Partners 
for Wildlife Program is a program that is predicated on 
voluntary partnerships. Our employees, as members of the local 
community, go out and leverage our dollars with those of others 
to effect conservation on the ground. It's an extremely 
positive program and we're very proud of it.
    Senator Baucus. I just encourage you to do a lot more of 
it, because it's working there.
    Ms. Clark. Absolutely.
    Senator Baucus. On the other hand, as you know, the 
discretionary spending budgets--once you calculate inflation--
are being effectively cut; that is, there's one-half of 1 
percent increase, generally, in discretionary spending in the 
budget that is going through the Congress over the next 5 
years, which effectively is a cut.
    What would your priorities be under those circumstances?
    Ms. Clark. Our priorities remain balanced among those 
programs that achieve the best gain for fish and wildlife 
conservation. As reflected in the President's budget, our 
priorities are associated with migratory birds, the health of 
our Refuge System, endangered species, and wetlands 
conservation, and we balance all of our programs to achieve 
those mission objectives. Partners for Wildlife is certainly 
one of those very positive programs.
    Senator Baucus. I'll get back to that.
    This may be unfair, but I do pick up at home a bit of a 
sense that Fish and Wildlife Service doesn't listen as much, 
perhaps, to people as it should, compared with some other 
agencies. I've picked that up, too; I've just sensed it 
generally. I'll just tell you, there's nothing like going out 
early and talking to people way before something happens--or 
maybe, not happen--because if you do go out there early, 
several things happen. No. 1, you learn something; you learn 
something that you might not have known before. Second, you 
probably will find a different way of doing it; there are all 
kinds of ways to skin a cat. And you engender the trust of the 
people.
    I urge you to get your people out of Washington, out of 
your head offices, as much as you possibly can, to get out in 
the field and just see people and talk to people.
    Ms. Clark. I would be glad to, myself included.
    Senator Baucus. Thank you.
    Senator Chafee. Thank you.
    Senator Kempthorne.
    Senator Kempthorne. Mr. Chairman, thank you.
    Ms. Clark, as you know, the Fish and Wildlife Service 
recently issued a proposed rule to list the bull trout as an 
endangered species, even though the State of Idaho had 
developed a bull trout plan, and various members of the 
regulated community were in the process of trying to develop 
prelisting agreements for bull trout with the Fish and Wildlife 
Service.
    Is the Service willing to commit to work with the State of 
Idaho and public and private stakeholders to develop prelisting 
agreements for the bull trout, and to consider these agreements 
when it decides whether or not to list the bull trout?
    Ms. Clark. Absolutely, Senator. As you know, the bull trout 
was proposed as the result of a court order that was part of a 
court debate for quite a long time. We have been very much 
involved with the State of Idaho and other constituents in 
attempting to address the status and conservation needs of the 
bull trout early on.
    The Fish and Wildlife Service does not believe that adding 
species to the list is a success; quite frankly, it's the 
opposite. It's a failure. We are very much committed to working 
out the status of species and addressing the decline of species 
before they have to stumble onto the Endangered Species List. 
Quite frankly, we are absolutely very much with you on 
addressing the conservation needs of the species early on, and 
we will consider fully any commitments and any conservation 
programs prior to making a final decision by next June.
    Senator Kempthorne. All right. That's very helpful. I 
appreciate that.
    Now, another one of the issues that we've been dealing with 
is the Bruneau Hot Springs snail. Is the Fish and Wildlife 
Service willing to commit to work with the State of Idaho--and 
again, public and private stakeholders--to develop a 
conservation agreement for the Bruneau snail? Will the Fish and 
Wildlife Service commit to monitor water levels in the aquifer 
for the remainder of the year, and to include the data from 
that monitoring in any future decision?
    Ms. Clark. The Bruneau Hot Springs snail is a listed 
species today, and we are absolutely committed to working with 
the State of Idaho and other constituents to address recovery 
strategies for this snail. Monitoring is an important part of 
that, particularly given the change in water years, and I will 
certainly pledge to go back and work with the U.S. Geological 
Survey, as well as the service, to figure out the most 
appropriate way to ensure a monitoring regime for the snail.
    Senator Kempthorne. All right.
    Again, the U.S. Geological Survey has put in the wells; we 
have seen a recharge of the aquifer over the last 2 years. It 
is critical information that should be included.
    Ms. Clark. Absolutely.
    Senator Kempthorne. With regard to the Fish and Wildlife 
Service releasing last week a draft EIS on the reintroduction 
of the grizzly bear in Idaho, while the draft EIS would provide 
for a citizens' management committee that would include 
individuals nominated by the Governor, I am concerned that the 
underlying decision to release grizzly bears in Idaho was made 
without consulting with the Idaho Department of Fish and Game. 
Can you assure me that grizzly bears will not be released in 
Idaho within the next 18 months, and that the State of Idaho 
will have an opportunity to work with the Service to define the 
conditions regarding this issue?
    Ms. Clark. I will assure you, Senator, that I believe we 
have ample time to work together with you, the State, and other 
interested parties to address the concerns of the State of 
Idaho, to address the needs of the grizzly bear, and to ensure 
that all of our collective interests are met.
    Senator Kempthorne. Is the Service willing to commit to 
work with Idaho Fish and Game and other State agencies before 
the release of any grizzly bears in the State in order to 
ensure that public safety is protected?
    Ms. Clark. Absolutely, Senator. Actually, there are 
discussions ongoing in the States of Idaho and Montana today 
which include everything from extending the public comment 
period on the environmental impact statement, to addressing 
changes in the public hearing schedule, to pulling together a 
coalition to address the very issues that you are concerned 
about.
    Senator Kempthorne. Will the Service provide clarification 
on the authority of the citizens' management committee to 
ensure that its decisions on the management of any grizzly bear 
population in Idaho will not be arbitrarily reversed by the 
Secretary?
    Ms. Clark. Yes, Senator, we will.
    Senator Kempthorne. In your written testimony you made the 
statement, ``We need to look for new and innovative ways to 
achieve species and habitat conservation.'' I certainly agree 
with you in that statement. That's why we have included more 
flexible habitat conservation plans, safe harbor agreements, 
and the ``no surprise'' policy in our ESA bill.
    What do you envision are the best new alternatives to 
conserve species and their habitats, and how do you expect that 
the Service will try to implement them?
    Ms. Clark. Well, some of the opportunities that you just 
mentioned are very much at the forefront. All of the innovative 
tools that we have developed thus far, and others we are 
looking forward to developing in the future, have common themes 
of species conservation, certainty for the regulated public, 
and involvement of affected stakeholders. We are continuing to 
solicit other creative ideas. We have been working with many of 
you and your staffs to do so.
    The kinds of activities or programs or policy initiatives 
that we are looking at should be predicated on addressing 
decline of species before they require Endangered Species Act 
protection, and maximizing the opportunities of the States and 
other parties to manage the species within their jurisdictions.
    So I think the sky is the limit. I think we have tremendous 
opportunities, and there are a lot of creative minds committed 
to wildlife conservation. We ought to certainly be having those 
discussions.
    Senator Kempthorne. All right. Thank you very much.
    Senator Chafee. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Ms. Clark, in my view, when the Federal Government gave the 
OK for the Oregon Coastal Salmon Plan, that was essentially a 
green light for an unprecedented, first-of-its-kind approach 
for recovering a species. Do you think that the Oregon approach 
has the potential to be a nationwide model?
    Senator Chafee. Why don't you tell us a little bit, without 
going into too much detail, what is the Oregon approach? Just 
now it's Oregon, isn't it?
    Senator Wyden. It is. You've got it, Mr. Chairman.
    [Laughter.]
    Senator Wyden. What it is about--and I'm glad you asked, 
because it touches on my----
    Senator Chafee. I won't take it out of your time.
    Senator Wyden. I thank you.
    The traditional approach to saving a species, of course, is 
that you list it, and then you have a recovery plan. That's the 
way we've always done ``business as usual,'' and of course at 
home and in the rural west there is great concern about some of 
the economic consequences and some of the disruption.
    What Oregon has essentially done is said, ``Give us a 
chance to bring people together on a local level with a State 
plan; give us some time to make it work; and we will tell the 
Federal Government that we will meet all the requirements of 
the act.'' So essentially there are two schools to this: the 
traditional approach, you list it on a Federal listing, and 
then you go on to your recovery plan, and what Oregon is 
talking about is a different approach. We have a State plan, 
and because the Federal Government is convinced that it is 
biologically sound, the State is given a chance to make it 
work.
    Senator Chafee. Thank you.
    Ms. Clark. Senator Wyden, you touched on the important 
points. We are absolutely committed to conservation objectives 
that address the biological needs of species and retain as much 
management flexibility for the States and others as possible.
    Where States, local governments, and individual citizens 
step forward to conserve species before they need the 
protections of the Endangered Species Act, it is good for 
species and good for the potentially regulated public. That's a 
win-win situation. That's a direction in which our agency is 
moving, along with the National Marine Fisheries Service, and a 
direction that I think is very critical to the future of 
wildlife conservation, so we heartily endorse those kinds of 
programs.
    Senator Wyden. Let's say that the Oregon approach is struck 
down on process grounds. The act, as you know--there is 
essentially the biology; Oregon has said, ``We're going to meet 
every one of the biological requirements,'' but supposing a 
judge strikes it down on process grounds and says, ``You know, 
my reading of this statute is that you can only do it the 
traditional way. You've got to have a listing and then a 
recovery plan, and what Oregon wants to do with a State plan 
and State dollars and time for doing it doesn't meet the 
requirements of the act from a process standpoint.'' Would the 
Administration be sympathetic to a change in the law on process 
grounds in order to encourage these kinds of State initiatives?
    Ms. Clark. Well, Senator, I will tell you that I have spent 
a lot of time in courts in the last few years with endangered 
species issues. It's a program that has been very much 
surrounded by litigation, as you well know.
    When we have process debates we oftentimes lose, but in 
these particular instances, with candidate conservation 
initiatives, addressing the species' needs prior to an 
Endangered Species Act listing, the debate will be over the 
merits. If we, in partnership with the States or other involved 
parties, are committed to the structure and the intent and the 
specifics of a conservation plan, we will be right beside you, 
arguing for the support of that plan.
    Senator Wyden. Well, that sounds encouraging, but I think 
we may--I hope with every ounce of my strength that we don't 
end up with that here when the Chairman and Senators Kempthorne 
and Baucus are dealing with the Endangered Species Act. But I 
feel very, very strongly that we ought to keep the biological 
requirements of this act. We can do it. People at home want to 
do it. They want to protect species, but, by God, there's a 
better process, and we've seen it work in our State.
    One last question that I wanted to touch on. We in Oregon 
in the Willamette Valley have had a very serious situation with 
the dusky geese, which is an overpopulation of Canadian geese. 
We've had the number triple in the last 5 years and there have 
been millions of dollars in crop losses and damage to Oregon's 
farmers. Essentially all sides--environmental, the science 
community, the farmers--agree that in effect the hand of man 
was not involved here.
    What might the Service do to reduce the extraordinary 
damage that the geese are doing to private lands and crops, 
again, consistent with good science?
    Ms. Clark. Well, the dusky geese issue has been an 
interesting challenge for all of us. As I understand it, the 
population declines that have been observed and monitored since 
the early 1960's are as the result of an earthquake in Alaska 
that allowed for access by predators to the nesting grounds of 
the duskies. We have been monitoring the declines, working with 
the Pacific Flyway Council.
    Collectively, today, we are looking at a number of things, 
exploring flexibilities in the hunting season to try to address 
the increasing numbers of the other subspecies of geese; and 
looking at habitat modification needs. We are very much 
committed to working along with the Council and the States to 
address the very real depredation that is occurring as a result 
of the other, more populated subspecies of geese.
    We are concerned, however, and we continue to monitor the 
population declines of the dusky subspecies, and as I 
understand it, the population is somewhere between 7,000 and 
10,000 geese, which is precipitously low for that subspecies. 
But I am committed to continuing to try to work, along with the 
Council and the State, to look at flexibilities to address both 
issues, the long-term health of the dusky and the very severe 
depredation that is occurring from the other geese species.
    Senator Wyden. Thank you.
    Thank you, Mr. Chairman.
    Senator Chafee. Thank you, Senator.
    Senator Thomas.
    Senator Thomas. Thank you, sir.
    I'm not sure I understood one of your earlier comments. I 
think the question was, would the Secretary override an 
advisory committee decision, and you said no. Is that what you 
meant?
    Ms. Clark. The question on the grizzly bear from Senator 
Kempthorne?
    Senator Thomas. I don't know where it came from, but it had 
to do with an advisory committee, and the question was, would 
the Secretary override it, and you said no.
    Ms. Clark. I believe, Senator--and Senator Kempthorne might 
help me out here--that the question had to do with the 
Secretary's override of jurisdiction with the Citizens' 
Management Committee that we have developed and put forth in 
the draft environmental impact statement and proposed rule for 
the reintroduction of the grizzly bear.
    The Secretary intends to delegate full authority to the 
Citizens' Management Committee, so long as the committee's acts 
and decisions----
    Senator Thomas. Right. That's the caveat.
    Ms. Clark [continuing]. Are in support of recovery of the 
grizzly bear.
    Senator Thomas. OK. Well, I just wanted to make sure that I 
understood, because we've had quite a bit of experience with 
that. And to say he won't override it is a stretch. OK.
    You talked about partnerships and you apparently have a 
number of them. Do you support the idea of having local and 
State agencies being cooperating agencies in the NEPA process?
    Ms. Clark. In the NEPA process? I'm not a NEPA expert, 
Senator, but I certainly support the involvement of local and 
State agencies in all of our fish and wildlife conservation 
work.
    Senator Thomas. Well, we're going to seek to make them. We 
can talk about cooperating, but do they really have a seat at 
the table? That has to do with being a cooperating agency. So I 
hope that when that arrives, that talking about partnerships is 
an easy thing to do----
    Ms. Clark. Absolutely.
    Senator Thomas [continuing]. But having a real role is not 
really quite as easy.
    What about grizzly delisting in Yellowstone in Wyoming? 
That's been pending now for some time. Everyone recognizes that 
we have exceeded the goals. What is your position on that?
    Senator Chafee. I missed that question, Senator. What was 
it?
    Senator Thomas. Delisting grizzly bears in Yellowstone and 
the Wyoming area.
    Senator Chafee. I think that is a good question. I'm 
interested in this whole delisting process. But never mind, the 
question was strictly with the grizzly bear.
    Ms. Clark. OK, let me respond to grizzly bears first.
    We are absolutely supportive of delisting the grizzly bear 
when appropriate to do so. I believe there is a huge debate, 
and I would be glad to get more specifics back to you for the 
record, Senator--over whether or not all of the goals outlined 
in the recovery plan for delisting the Yellowstone population 
have been met.
    Ms. Clark. The last 2 years we have had higher than normal 
mortality of our female bears with cubs. That is being closely 
monitored by us and some of our constituents, as you probably 
well know. We are very much committed to delisting the 
Yellowstone population as soon as possible. We are working on 
habitat-based criteria as a result of a lawsuit settlement, and 
we intend to complete that as soon as possible. As for the 
specific timeframes and more of the specifics I would be glad 
to get back to you on it.
    Senator Thomas. I wish you would. I mean, the Yellowstone 
officials and others for several years have said that it ought 
to be delisted, but it doesn't seem to move.
    I think you need to be a little more specific sometimes. To 
say, ``Well, as soon as all the conditions are met''--well, 
that could be never, if you want to continue to stress it. I 
just think people have lost some confidence in what you 
indicated when you said, ``These are the goals,'' and then when 
most people are persuaded that the goals have been met, still 
nothing happens.
    Ms. Clark. I agree with you, Senator. I certainly believe 
it's our responsibility to articulate the specific requirements 
of a delisted population. I believe there has been a lot of 
confusion and debate over the grizzly bear population. I will 
certainly get back to you with some more specifics.
    Senator Thomas. I would be grateful if you would. There has 
been a considerable amount of, frankly, loss--not only of 
domestic animals, but even the people are concerned.
    What about the brucellosis issue with the livestock that 
surrounds Yellowstone Park? Do you have a role? Do you have a 
suggestion? Do you have any remedies for what you're going to 
do there?
    Ms. Clark. Our agency certainly has a role. We have been 
working with the team of State and other Federal agency experts 
that are dealing with the brucellosis. I don't know much about 
the brucellosis issue, but I'd certainly be glad to get you 
back some specifics for the record.
    Senator Thomas. I think specifically, of course, is the 
management of the buffalo herd in Yellowstone which is, I 
suppose, largely a function of Yellowstone Park management.
    Ms. Clark. Right.
    Senator Thomas. But the Elk Refuge, which is in your 
agency, is also a very real part of that.
    Ms. Clark. Yes, it is.
    Senator Thomas. So it's something that needs to be 
resolved. I hope that we can find some solutions so that we 
don't run into the same kind of thing that we did last winter, 
which was not very pleasant for anyone, certainly.
    Ms. Clark. No, it wasn't.
    Senator Thomas. As I understand it, you have in your agency 
nearly 92 million acres that you manage. Do you have notions of 
additions to that? How do you see the future in terms of 
acquisitions, in terms of additions to that 92 million acres?
    Ms. Clark. Well, certainly, Senator, we support additions 
where they meet the needs of the intent of the Refuge System. 
We have a modest land acquisition budget on an annual basis 
that is aimed primarily at rounding out refuges. What I mean by 
that is addressing the in-holdings on our refuge lands 
primarily. So certainly our acquisition program continues, but 
it is very focused and specific.
    Senator Thomas. What would be your impressions of some kind 
of a policy that, if you have significant new acquisitions, 
that there be some tradeoffs? Somebody mentioned that in the 
west, 65 percent of the land belongs to the Federal Government 
now. What would be wrong, if you wanted to acquire a thousand 
acres from another agency, with disposing of a similar value, 
such as BLM?
    Ms. Clark. Well, that's a great question, Senator. What I 
will say--and I won't speak for BLM or any of the other Federal 
land agencies----
    Senator Thomas. Go ahead, if you want to.
    [Laughter.]
    Ms. Clark. Not with a microphone, I won't.
    [Laughter.]
    Ms. Clark. But what I will tell you is that the National 
Wildlife Refuge System is a unique network of lands, committed 
to fish and wildlife conservation. That's a very different 
mission than some of our other----
    Senator Thomas. I understand that, but I hope you 
understand that there is some concern in the west about 
increasing Federal ownership, when some States are up to nearly 
90 percent. Certainly, inevitably, there are some excess lands. 
It's an idea that I think we ought to pursue.
    Senator Chafee. She'll take all the money you've got for 
new land purchases for wildlife.
    [Laughter.]
    Senator Thomas. Thank you, Mr. Chairman.
    Senator Chafee. Anything extra, send our way.
    Senator Thomas. If you want to purchase some, Rhode Island.
    [Laughter.]
    Senator Chafee. Anything else, Senator?
    Senator Thomas. No, thank you.
    Senator Chafee. As I mentioned, we are going to have a 
committee business meeting here a week from tomorrow, the 24th, 
at 9:30, and it would be my hope that we could then consider 
this nomination. As I mentioned before, I am anxious to get it 
out on the floor, and if the committee and the Senate so 
approves, to have it all completed before we leave for the 
August recess.
    I would just like to bring to everybody's attention the 
success of some of these programs that we've had here that have 
come through this committee. One of them that has had great 
success--you mentioned it, Ms Clark--is the North American 
Waterfowl Management Plan, which was signed just 11 years ago 
by the United States and Canada and later Mexico joined in on 
it. To date, under that, over 4 million acres have been 
protected, restored, or enhanced in the United States and 
Canada, and 20 million additional acres have been protected in 
Mexico.
    Our statistics show--and I would be curious to know if this 
coincides with your statistics--that the wetlands conservation 
efforts are really paying off. Not since 1955--these are some 
statistics that I compiled this year, actually--not since 1955 
have we seen such a spectacular migration of waterfowl as 
during the past 2 years. In 1996, an estimated 89.5 million 
ducks, which is 6.5 million more than in 1995 and 18.5 million 
more than in 1994 and 24 million more than in 1993--in other 
words, these are the largest figures in the past 40 years. I 
gave you an awful lot of different figures there, but I think 
the key one is that in 1996, 90 million ducks migrated south 
for the winter. That's an incredible figure, and the largest 
since 21 years earlier.
    Is that what your figures show?
    [Laughter.]
    Ms. Clark. Yes, Mr. Chairman.
    [Laughter.]
    Ms. Clark. I'm sure you have good figures.
    Senator Chafee. Thank you. So you are an enthusiastic 
supporter of the North American Waterfowl Management Plan?
    Ms. Clark. Absolutely. It has been great. We need to be 
mindful that it is partnerships like the North American that 
have achieved the kinds of statistics that you were just able 
to share, and have gone a long ways toward achieving both 
wetlands and migratory bird conservation.
    Senator Chafee. All right.
    Well, I don't see any others here with questions. There may 
be some questions submitted in writing to you, and I would ask 
that you get those back very promptly.
    Senator Chafee. As I mentioned, it's my intention to 
consider this nomination a week from tomorrow.
    Thank you very much, Ms. Clark.
    Ms. Clark. Thank you, Mr. Chairman.
    [Statements and additional information follow:]
    Senator Chafee. That completes our hearing.
    [Whereupon, at 12:42 p.m., the committee was adjourned, to 
reconvene at the call of the chair.]
 Prepared Statement of Jamie Rappaport Clark, Nominee for Director of 
                   the U.S. Fish and Wildlife Service
    Good morning Mr. Chairman and members of the Committee. It is a 
great honor to be nominated by President Clinton as Director of the 
U.S. Fish and Wildlife Service, the Nation's premier Federal fish and 
wildlife conservation agency, and to have that nomination considered by 
this committee. It is also a privilege, as a career civil servant, to 
be considered for this position from within the ranks of the agency.
    I have met with many of you over the past few days and found that 
we have significant common beliefs in the importance of conserving our 
natural heritage. If I am confirmed, I look forward to continuing to 
work together with all of you over the next few years, focusing on our 
common commitment to fish and wildlife conservation.
    I care deeply about the work we do at the Fish and Wildlife Service 
and I am committed to our mission to conserve, protect, and enhance 
fish and wildlife and their habitats. I am proud of the job we do. Our 
7,000 employees are dedicated, motivated, and professional. They 
represent the best tradition of public service. Together, we continue 
to work to protect that delicate balance of living in association with 
our natural environment.
    Love of nature and the outdoors has been a major force in my life 
since I was a small child. I grew up in the military, moving on an 
average every year and a half. That certainly brought many challenges, 
but it also gave me opportunities to see many areas of the United 
States. I fondly remember exploring spectacular open spaces on 
horseback, seeing new birds and other wildlife, and discovering unique 
habitats.
    My passion for nature and wildlife eventually led me into the field 
of wildlife biology. My studies ranged from peregrine falcon 
reintroductions in Northern Maryland to my graduate thesis that 
involved working with hunters to evaluate white-tailed deer populations 
to ensure optimum herd density. I learned first hand the role of 
hunting as an effective wildlife management tool, and 1 share with 
hunters, anglers, and other outdoor enthusiasts an appreciation of 
wildlife that comes from long hours in the field observing nature.
    I even married a wildlife biologist. The ceremony took place on 
Matagorda Island National Wildlife Refuge, where my husband Jim was the 
refuge manager. Jim is a nature photographer and writer and we spend 
all available free time exploring national wildlife refuges, national 
parks, and forests looking for new places to observe nature and, of 
course, new scenes to capture on film.
    During my 8 years with the Fish and Wildlife Service, I have been 
part of an agency undergoing significant change. Though the Service 
remains committed to its statutory obligations and mandates like the 
Migratory Bird Treaty Act and the Endangered Species Act, I believe, as 
others do, that we need to continue to look for new and innovative ways 
to achieve species and habitat conservation. Most importantly, we have 
greatly expanded our work with partners outside the Service--whether 
they are State wildlife agencies, local governments, sportsmen's 
organizations, conservation groups, corporations, or individual private 
citizens.
    In the course of this transformation, the Service is learning to 
assume many different roles, depending on the situation. Our State, 
Federal, Tribal, and private partners have great capabilities to 
provide leadership and assistance in the management and recovery of 
natural resources. We recognize this and we are refining our ability to 
be a team player--knowing when to lead, when to follow, or when to 
assist to accomplish common goals. And I expect this process to 
continue.
    I realize that many folks may associate me with endangered species 
programs. Although my years with the Service have focused primarily on 
habitat restoration, environmental contaminants, and endangered species 
conservation, my early years as a resource professional were spent 
working for the National Guard Bureau and the Army as a wildlife 
biologist addressing land use management and environmental planning 
issues. I was responsible for developing and implementing fish and 
wildlife conservation practices Army-wide; emphasizing integration of 
wildlife management activities with the military mission. I spent much 
of my time in the field visiting military installations throughout the 
country, working to balance wildlife conservation needs with military 
readiness objectives. I also developed land management programs to 
ensure that military lands continued to support both wildlife 
conservation and military training objectives. I worked hard with 
military trainers and engineers, as well as with other Federal agencies 
and conservation organizations, to ensure neither military training nor 
wildlife habitat requirements were compromised. From these experiences 
early in my career, I learned about the importance of listening to all 
sides, effectively communicating specific needs, and working 
collaboratively with others to achieve multiple goals on lands 
supporting competing demands.
    The Fish and Wildlife Service is widely recognized as the national 
and international leader in wildlife conservation, and, if confirmed, I 
will work to ensure that hard-earned reputation is maintained and 
enhanced. Again, to do this, an ever-growing emphasis on partnerships 
and looking at the big picture is essential. With more than 1,100 
species on the list of endangered and threatened species, I know too 
well the feeling of frustration and failure associated with each new 
addition to the list. There is no way the Service or any other public 
agency can single-handedly conserve our Nation's fish and wildlife 
resources. We must work hard to leverage our own resources and 
expertise with those of others to effect change on the ground.
    Since transferring to the Fish and Wildlife Service in 1989, I have 
spent considerable time looking for new ways to achieve wetlands 
conservation, recover declining species, restore degraded habitats, and 
address the increasing concern about the effect of environmental 
contaminants on our natural resources. I have worked in partnership 
with folks like the ranchers in southern Arizona and New Mexico through 
the Malpai Borderlands Group; private landowners on Hawaii's Big Island 
working to prevent the extinction of the Hawaiian crow while preserving 
the integrity of their commercial farming and ranching operations; and 
the States of Illinois, Indiana, and Kentucky to balance the economic 
needs of the coal mining industry with wildlife conservation. Again, 
these experiences reinforced in me the value and importance of 
partnerships. Each of these partnerships was characterized by genuine 
trust, cooperation, mutual respect, and a desire for economic and 
environmental security. I believe the future of fish and wildlife 
conservation depends on collaborative partnerships such as these.
    The Service also must continue our concerted efforts to reach out 
to the public and to important constituencies with a stake in our fish 
and wildlife resources. I have participated in numerous partnership 
efforts and firmly believe that involving stakeholders and other agency 
expertise early on reaps long-term benefits for fish and wildlife 
resources and the economy. As the Service gains experience in this way 
of doing business, I believe we will realize the expanded skills that 
we all must master to learn to listen more actively, to work as a team 
player, to be open-minded, and to be prepared to take whatever approach 
is most effective in accomplishing the task.
    I am convinced that as people better understand the connection 
between ecosystem health and quality of life, our success at managing 
for ecosystems and ensuring economic viability will continue to 
increase. The Service needs to communicate to others the fundamental 
message that the fate of wildlife and humans alike is linked to the 
well-being of the environment around us.
    The Service is dedicated to addressing change, not only in how we 
explore new ways to conserve and manage our wildlife resources, but 
also in recognizing the importance of a workforce reflective of our 
Nation's citizenry. Increasing the diversity of our workforce is an 
important element in improving our efforts to develop unique and 
innovative approaches and strategies for wildlife conservation. A 
skilled workforce, diverse in cultures, experiences, and ideas is 
equipped to build upon traditional and successful approaches by 
identifying new and fresh ideas for addressing conservation issues. The 
richness of this experience is an asset, and its absence is an enormous 
liability. I believe I can help the Service continue to work toward its 
goal of a diverse and skilled workforce.
    Americans are passionate about wildlife, and that passion fuels the 
U.S. Fish and Wildlife Service. This is an exciting time to be at the 
helm of this agency. If confirmed as Director, I look forward with 
great enthusiasm and excitement to the challenge of leading an agency 
dedicated to conserving, protecting, and enhancing fish and wildlife 
and their habitats for the continuing benefit and enjoyment of the 
American people. I pledge to work with you, the American public, other 
Federal, State, Tribal, and private entities, and with the outstanding 
employees of the Service to continue protecting our Nation's natural 
heritage for generations to come.
    Senators, thank you again for the honor of your consideration.
         Responses to Additional Questions From Senator Chafee
    Question 1. It is rare indeed when a career civil servant rises 
through the ranks to become the director of an agency, particularly in 
the span of time you have been with the Fish and Wildlife Service. How 
will this background and experience shape your duties as Director, with 
respect both to policy issues and to the management of the Service?

    Answer. During my 8 years with the Fish and Wildlife Service, I 
have been part of an agency undergoing significant change. It is 
increasingly clear to me, and to my colleagues in and out of the 
Service, that we need to continue looking for new and innovative ways 
to achieve species and habitat conservation. Identifying new and 
innovative conservation measures for both species and habitat will be 
my goal as a policymaker; implementing these measures effectively will 
be a measure of my success as a manager. Service employees, other 
government agencies, and non-government organizations are finding 
creative approaches to conservation questions almost every day. 
Ensuring that those approaches are successful is our greatest 
challenge. The Service must work hard to leverage our own resources and 
expertise with those of State wildlife agencies, local governments, 
sportsmen's organizations, conservation groups, corporations, and 
individual private citizens to effect change on the ground. We must 
refine our ability to be a team player--knowing when to lead, when to 
follow, and when to assist to accomplish common goals. That is the 
direction I intend to set.
    I believe my experience has given me a unique and useful 
perspective on working with the Service's partners to achieve the 
Nation's conservation goals. My early years as a resource professional 
were spent working for the National Guard Bureau and the Army as a 
wildlife biologist addressing land use management and environmental 
planning issues. I was responsible for developing and implementing fish 
and wildlife conservation practices Army-wide; emphasizing integration 
of wildlife management activities with the military mission. As a 
consequence, I recognize and understand the need to balance wildlife 
conservation needs with other objectives. Working to achieve balance 
also meant that I was actively engaged with military trainers, 
engineers, other Federal agencies, and conservation organizations in 
developing and implementing real world solutions. From these 
experiences, I learned about the importance of listening to all sides, 
effectively communicating specific needs, and working collaboratively 
with others to achieve multiple goals on lands supporting competing 
demands.
    Since joining the Service in 1989, I have spent considerable time 
looking for new ways to achieve wetlands conservation, recover 
declining species, restore degraded habitats, and address the 
increasing concern about the effect of environmental contaminants on 
our natural resources. I have worked in partnership with folks like the 
ranchers in southern Arizona and New Mexico through the Malpai 
Borderlands Group; private landowners on Hawaii's Big Island working to 
prevent the extinction of the Hawaiian crow while preserving the 
integrity of their commercial farming and ranching operations; and the 
States of Illinois, Indiana, and Kentucky to balance the economic needs 
of the coal mining industry with wildlife conservation. I believe the 
future of fish and wildlife conservation depends on collaborative 
partnerships such as these.

    Question 2. In recent years, the Service has undertaken many 
initiatives in implementing the Endangered Species Act. These include 
the ``no-surprises'' policy, the safe harbor and candidate conservation 
policies, streamlining agreements, among other. Some of these 
initiatives are being considered in the context of legislation; and 
some of these initiatives have been considered fairly controversial. I 
am certain that all of these have significant consequences to both the 
agencies and individuals subject to the law. I have two questions.
    (a) First, with respect to Federal agencies, how have these 
initiatives affected the Service's interaction with other agencies?

    Answer. These three recent initiatives are currently under review 
by the public, including the States, and other Federal agencies. The 
Service is now collecting and evaluating these comments. To date, the 
reaction from other Federal agencies has been favorable. The policies 
should benefit Federal agencies because they encourage greater 
participation of all stakeholders in recovery of listed species, or, in 
the case of the Candidate Conservation Policy, in precluding the need 
to list species. In the case of the No Surprises and Safe Harbor 
policies, if the public voluntarily assumes a greater role in recovery 
of listed species, Federal agencies may have their role lessened and 
species may be recovered in less time. Removing species from the list 
of protected species removes a regulatory burden from both the public 
and from Federal agencies. In the case of the Candidate Conservation 
Policy, if candidate conservation agreements sufficiently remove the 
threats to candidate species and the need to list the species is 
precluded, both the public and other Federal agencies benefit. There is 
no need to impose regulations and the cost to both the public and 
Federal agencies is lessened. The Service has numerous candidate 
conservation agreements with other Federal agencies for species 
occurring on Federal lands. The conservation agreement for the Jemez 
Mountain salamander with the U.S. Forest Service in New Mexico has been 
working to conserve this species for more than 5 years.

    Question 2(b). Second, with respect to private landowners, how are 
you monitoring the effectiveness of these initiatives?

    Answer. The Service has a monitoring obligation for any agreement 
designed to conserve species or minimize the impacts of activities on 
species. Such agreements include Section 7 biological consultations, 
Section 10(a)(1)(B) permits that accompany Habitat Conservation Plans, 
No Surprises agreements, Safe Harbor agreements, and Candidate 
Conservation agreements. Monitoring is composed of two functions: 
monitoring implementation and monitoring effectiveness. In monitoring 
implementation, it is the Service's responsibility to ensure that the 
measures included in the agreement are being implemented by the action 
agency or permit holder. The Service takes this responsibility 
seriously. To a large degree, the increases the President's fiscal year 
1998 Budget requests for the Consultation Program and the Recovery 
Program are designed to ensure that the Service has the necessary 
resources to monitor the increasing number of biological opinions, 
permits, and agreements. The Service also plays a role in monitoring 
the effectiveness of the measures intended to conserve species. 
Sometimes Service biologists collect and interpret the relevant data. 
More often, the responsibility to monitor the effectiveness is part of 
the consulting Federal agency or permit holder's responsibility. The 
agreement in these cases provides that these other parties use agreed-
upon methods to monitor for effectiveness, and report the results to 
the Service.

    Question 3. Recently, the Service has lost a number of court 
decisions regarding its decision not to list certain species or 
designate critical habitat for certain species. Specifically, the 
Service has lost decisions relating to the Barton Springs salamander, 
the bull trout, and two species in the Tongass National Forest, in 
which the Service relied on ongoing or developing conservation 
initiatives. I am a little concerned both with the track record of the 
Service and the underlying bases for the Service's initial decisions 
not to list these species. It would be one thing if those decisions 
were upheld by the courts, but in light of the rejection by the courts, 
are you developing any guidance on how to incorporate newly developed 
conservation efforts into your listing decisions?

    Answer. Yes, the Service is currently developing guidance 
concerning the role conservation agreements and other conservation 
measures should play when making listing determinations.
    I believe that it is important to engage the public and private 
sectors in conserving declining species, preferably before species 
reach the point where they require listing. The Service has entered 
into approximately 40 candidate conservation agreements in the last 4 
years and 5 of these led to withdrawals of listing proposals. One such 
conservation agreement is the northern copperbelly water snake 
agreement, where numerous coal companies and the States of Illinois, 
Indiana, and Kentucky ensured conservation of the species habitat, 
resulting in removal of threats to the species sufficient to preclude 
the need for listing under the Act.
    Your question refers to adverse court decisions on the use of 
conservation agreements. The Barton Springs salamander is the only 
agreement where a court ordered the species to be listed despite a 
conservation agreement. This court decision was based on an unusual 
record, where the FWS had addressed the listing issue over several 
years, with the conservation agreement coming very late in the process. 
We do not regard this court decision as generally applicable to other 
cases.
    In the case of the Queen Charlotte goshawk and the Alexander 
Archipelago wolf on the Tongass National Forest, the court set aside a 
not warranted listing determination. But here the Service's primary 
reasons for determining that listing was not warranted was that there 
was insufficient information to substantiate threats to either species. 
We also concluded that given the Forest Service's mandate to manage for 
viable populations of all native vertebrate species, the wolf and 
goshawk would likely not need the protection under the Act after a 
revised forest management plan was issued. Now that a revised plan has 
been issued, the Service will review whether the species need the 
protection of the Act.
    The Service's original bull trout petition finding, which was 
challenged in court, was that listing the bull trout in the U.S. was 
``warranted but precluded'' by other higher priority listing 
activities. This decision was based in part on planned protective 
measures on public lands. The court determined that the Service should 
not have relied upon future management actions like those planned 
measures when making its determination of threats. The Service did not 
rely on these conservation measures when making a final determination, 
but used them only in its attempt to prioritize use of its limited 
resources in order to first protect other species that do not enjoy 
ongoing protections. The Service believes, in the case of the bull 
trout, this was the right decision. Nevertheless, the Service 
recognizes that the Court has raised a valid question, and we are 
currently developing guidance to address this issue.
    The Service has an overall outstanding record when making 
determinations on whether species need the protection of the Act. For 
example, since the listing moratorium was lifted in April 1996, the 
Service has published final rules for 133 species, proposed rules for 
18 species, and withdrawals of proposals for 9 species, for a total of 
160 listing decisions. It is noteworthy that so few of these 
determinations have been set aside in court.
                                 ______
                                 
         Responses to Additional Questions From Senator Thomas
    Question 1. What is your view on the role of cost-benefit analysis 
with respect to the natural resource damage assessment and restoration 
process?

    Answer. Under the existing CERCLA natural resource damage 
assessment regulation, natural resource trustees consider a variety of 
factors, including costs and benefits, in evaluating alternatives to 
restore resources lost or injured as a result of hazardous substance 
releases. Trustees focus on making the public whole for losses to 
publicly owned or managed resources resulting from a release of 
hazardous materials or oil. In this process, trustees consider both on-
site and off-site restoration alternatives. I support the 
Administration's position that the goals of CERCLA and the Oil 
Pollution Act (OPA) are to protect public health and the environment in 
the most cost-effective and sensible way. CERCLA and OPA declare that 
natural resources are held in trust for the public, and mandates that 
those who pollute the environment, not the American public, must be 
held accountable for restoring, replacing or acquiring the equivalent 
of natural resources injured or lost as a result of their actions. 
Thus, costs and benefits are important, but not controlling factors in 
selecting restoration actions to make the public whole for losses 
sustained as a result of hazardous materials or oil entering the 
environment.

    Question 2. Under your leadership, how would technical and 
financial realities be taken into account in formulating plans for 
remediation?

    Answer. In conducting remediation under CERCLA, the U.S. Department 
of the Interior and the U.S. Fish and Wildlife Service follow the 
National Contingency Plan (NCP), which requires consideration of 
technical feasibility and cost. As you know, the NCP contains extensive 
criteria for remedial actions under CERCLA.

    Question 3. Would the planned use for the property be taken into 
account in formulating remediation activities and requirements?

    Answer. In evaluating the adequacy of remedial action alternatives 
to eliminate risks to human health and the environment, the U.S. Fish 
and Wildlife Service considers future land use. For example, in 
remediating contamination on wildlife refuges, we consider the purposes 
of the refuge for protecting wildlife, as well as visitor activities on 
the refuge.

    Question 4. What efforts will you make to ensure that the costs 
involved in the restoration of natural resources do not exceed the 
value of the property, thereby discouraging redevelopment?

    Answer. The FWS has significant responsibilities under CERCLA and 
OPA related to its management, control and protection of land and 
natural resources. These resources belong to the public and include 
migratory birds, anadromous fish, and endangered species. We will 
continue to take our stewardship responsibilities seriously and focus 
on making the public whole in those situations where natural resources 
have been lost or degraded as a result of contamination of the 
environment. In selecfing a restoration action, we consider a variety 
of actions, usually both on-site and off-site, and consider numerous 
factors (including cost) to identify the most appropriate and cost-
effective restoration alternative.

    Question 5. What steps do you intend to take to encourage early and 
meaningful participation by PRPs in the assessing and rectifying 
natural resource damages?

    Answer. The CERCLA and natural resource damage assessment 
regulations require us to invite PRPs to join in the natural resource 
damage assessment process at the planning stage. The Service encourages 
this participation as it facilitates assessment, settlement and 
restoration. I will continue to encourage early PRP involvement in the 
Service's implementation of the NRD Program. We have successfully 
secured the input of many PRPs and they, in tum, have provided trustees 
with settlement agreements that provide for restoration either through 
payment of damages or through ``in-kind'' settlements. Similarly, I 
strongly support the use of Biological Technical Assistance Groups at 
the remediation stage, composed of parties with interest and expertise 
in the site.

    Question 6. Do you support placing a cap on damages or other 
mechanisms for limiting liability of PRPs for natural resource damages?

    Answer. As you know, the Administration has maintained a steadfast 
commitment to maintaining the trustee's ability to effect meaningful 
restoration of injured natural resources because it is so vital to the 
Nation's well being. For this reason, I support the Administration's 
opposition to legislative proposals that would place caps on liability 
for restoration, other than what is already contained in CERCLA. Caps 
risk denying the public compensation for its losses and could result in 
ineffective restoration or completely prohibit restoration for the most 
serious cases of injury caused by long-term hazardous substance 
release.

    Question 7. If not, what measures would you take to promote 
expeditious settlements and prompt remediation?

    Answer. I will continue to support efforts during CERCLA 
implementation that reaffirms the commitment to the principle that the 
polluters, not the American people, should be responsible for cleaning 
up toxic waste and for restoring resources injured as a result of the 
release of the waste. Current implementation by the EPA and the States 
allows for remediation decisions to occur as quickly as resources will 
allow. The Service, under my leadership, will continue to assist the 
EPA and the States to work within the Congressionally mandated 
responsibilities of CERCLA to protect public health and the 
environment. We have a successful track record of providing technical 
assistance to cleanup agencies that has resulted in the adoption of 
remediation techniques that have resulted in less injury to natural 
resources during response and remediation and the reduction of 
restoration challenges that have allowed natural resources to return to 
the State they were in before the release.

    Question 8. How do you intend to promote the equitable treatment of 
PRPs in natural resource damage cases?

    Answer. The Service has secured several negotiated settlements with 
PRPs resulting in in-kind settlements that have allowed PRPs to 
directly provide restoration of injured resources, rather than rely on 
trustee implementation. I will continue to encourage the U.S. Fish and 
Wildlife Service to invite PRP involvement as early as possible in the 
process to not only cut costs, but also to effect restoration of the 
natural environment as early as possible. Such involvement by all 
interested parties early in the process ensures fair and equitable 
treatment of all affected parties. Key issues are identified early, 
options can be developed openly among participants, and decisions made 
with relevant and up-to-date information. Such coordinated decisions 
ultimately treat all participants more fairly.

    Question 9. What is the FWS role and involvement in managing the 
brucellosis problem around Yellowstone and National Elk NWR?

    Answer. The FWS's role in managing brucellosis issues in the 
Greater Yellowstone Area is limited to management of brucellosis in the 
bison and elk in the Jackson Hole, WY area which frequent the Refuge 
during the year. The Service is using a four-pronged approach to manage 
brucellosis in these populations: (1) controlling animal numbers, (2) 
participating in scientific research efforts to develop an effective 
vaccine, (3) minimizing the possibility of transmitting the disease by 
rehabilitating an outdated irrigation system to improve forage 
production and distributing animals more widely on the Refuge, and (4) 
working with partners to secure land or easements to separate elk and 
bison to minimize possibility of interspecies transmission.
    The National Elk Refuge was created in 1912 to provide elk feeding 
areas to mitigate for human encroachment onto elk winter range in the 
Jackson Hole area. Elk are a State managed species. Thus, the FWS 
manages the habitat, the State of Wyoming manages the animal numbers, 
and the State and FWS share costs of supplemental feeding. Because the 
perimeter of the refuge is not fenced, the only currently feasible 
mechanism for limiting the numbers of animals on the refuge is to 
manage the harvest, a State regulated activity. Because the elk and 
bison both migrate onto and off the Refuge, Grand Teton National Park, 
BLM, and Forest Service property, the Service must work with all of 
these partners and the State of Wyoming to accurately assess numbers of 
both species so the State can implement effective hunting regulations.
    The Fish and Wildlife Service cooperated with the State of Wyoming 
in an experimental vaccination program on the Refuge in which 
approximately 2000 elk were vaccinated. It was labor intensive and 
difficult because of conditions at the Refuge, and was not a 
demonstrable success. Scientifically tested, effective, safe, orally 
administered vaccine must be developed for vaccination to be effective 
in such conditions, and the Service is working with other Federal 
agencies to contribute to the development of such a vaccine.
    The Service has recently consulted with the Natural Resource 
Conservation Service to develop plans for an effective, modern 
irrigation system to increase forage production on the Refuge. 
Preliminary estimates are that with an updated irrigation system, the 
Refuge could produce up to six times as much forage, almost eliminating 
the need for supplemental feeding in most years. This would widely 
distribute elk across the Refuge and greatly minimize possibilities of 
transmission of brucellosis. In naturally distributed populations of 
elk, about 1 percent of the population tests seropositive for 
brucellosis, and this is just about the same number as the error rate 
for the test.
    Finally, the Service is working with partners to find wintering 
habitat off the Refuge for the small Jackson bison herd. Separating 
bison from elk would prevent possibilities of interspecies transmission 
of brucellosis.

    Question 10. What is the status of delisting the Grizzly Bear? The 
``standards'' for delisting have not been clear and the time line has 
continually changed. Could you clarify what the ``standards'' are and 
the time line for delisting.

    Answer. The approved grizzly bear recovery plan delineates 6 
separate recovery areas. Each population can be recovered and delisted 
separately, independently of the others. Recovery goals include such 
things as the number of females observed with cubs, human-caused 
mortality levels, human-caused female mortality levels, and occupancy 
of bear management units. The required level for each measure will vary 
among the 6 areas. The Recovery Plan does not delineate specific 
timeframes for delisting because many of the goals are dependent on 
exterior forces that are impossible to predict. As an example, the 
Yellowstone population is well on its way to recovery: the Yellowstone 
population of 33 females with cubs in 1996 exceeds the recovery goal of 
15. Occupancy and mortality goals have also been met, but the human-
induced female mortality goal is still being exceeded. In addition, as 
a result of a recent settlement of the Grizzly Bear Recovery Plan 
lawsuit brought by the Fund for Animals, National Audubon Society and 
three dozen other conservation groups, the Service is required to 
develop, measure and achieve habitat-based recovery criteria before 
delisting the bear. These criteria are being developed now by an 
interagency team and will be ready by fall of 1997. In addition, before 
the Yellowstone bear can be delisted, Montana and Wyoming must change 
State laws that currently allow high levels of bear mortality. The 
Service and the Interagency Grizzly Bear Committee (IGBC) hope to 
resolve all the Yellowstone delisting issues in the near future in 
order to delist the Yellowstone population as soon as possible.
    The Northern Continental Divide population has also met its 
``female with cubs'' recovery goals, but not some of the other 
objectives. The other three existing populations in the Selkirks, 
Cabinet/Yank, and Northern Cascades ecosystems are currently making 
little or no progress toward recovery. The Bitterroot recovery goals 
will be established by a Citizens Management Committee if and when 
bears are introduced into the ecosystem and sufficient scientific and 
commercial information becomes available. If 25 bears are introduced 
into the Bitterroot over a 5-year period, a tentative recovery goal of 
280 bears over the 5,785 square miles of designated wilderness may take 
as long as 100 years.
    In summary, 2 of the current 5 grizzly bear populations are well on 
their way to recovery, but the Service and the IGBC must meet several 
requirements before delisting is possible. We hope to meet those 
requirements in the near future. Time lines have not been established 
for any of the populations because recovery and delisting are highly 
dependent on external forces and because bears reproduce slowly.
         Responses to Additional Questions From Senator Allard
    Question 1. Recently, Colorado, Wyoming, Nebraska and the U.S. 
Department of Interior agreed in principle to a program to protect 
species in the Central Platte. Fish & Wildlife will have a crucial role 
to play in this agreement because the first stage is a 3 year NEPA 
process.
    Ms. Clark, I'm sure we have both seen NEPA's run wild. Please 
indicate to me how you would intend to ensure that the process is 
controlled so that it performs its function in the time allotted and 
that it is not an excuse for rewriting the agreement?

    Answer. The Central Platte agreement is an excellent example of the 
kind of collaborative partnerships that will be key to balancing the 
environmental, economic and social needs of society in the future. 
Colorado, Nebraska and Wyoming all deserve special recognition for the 
enlightened approach they are taking in conserving the fish and 
wildlife resources of the Platte Basin. The Fish and Wildlife Service 
is committed to making this agreement work in order to provide greater 
certainty of Platte River flows for a variety of uses, including 
agriculture, electric utilities, and other water uses as well as 
wildlife. I can assure you that I will do all I can to ensure that the 
NEPA process is completed in a timely and effective manner.
    I believe there are several aspects of the agreement that will help 
keep the process on track. The agreement includes a description of the 
proposed program that will be one of the alternatives considered under 
the NEPA process. All parties realize that the proposed program must be 
properly analyzed in the NEPA process, but they also recognize that it 
is in everyone's long-term interest to ensure that the proposed program 
remains substantially intact. The agreement also established an 8-
person Governance Committee with representatives from the States, water 
users, environmentalists and the Department of the Interior to review, 
direct, and provide oversight for agreement activities. Oversight of 
the NEPA process will be one of the major concerns of the Governance 
Committee. I believe the Governance Committee will have a direct 
interest in seeing that the NEPA process is carried out in a timely and 
effective manner to reach the agreement's goals. Finally, the Bureau of 
Reclamation and the Fish and Wildlife Service, as the two Federal 
agencies directly responsible for the NEPA process, will be cooperating 
closely. Both agencies were intimately involved in negotiating the 
agreement in principle and both have an interest in assuring that the 
agreement remains essentially intact.

    Question 2.  What is the status of the programmatic biological 
opinion being prepared on the Colorado River Recovery Program?

    Answer. The biological opinion dealing with historic projects and 
new depletions on the Colorado River above the 15 mile reach of the 
Grand Valley is under development at this time, pending completion of 
the hydrological analyses being done by the Colorado Water Conservation 
Board. A draft biological opinion is tentatively scheduled for 
completion in October 1997, with a final opinion to be completed four 
to 6 months after the draft.

    Question 3. Will this opinion fulfill its intended function of 
allowing development of Colorado's apportionment under the Colorado 
River Compact and protecting the various fish species?

    Answer. The intended goal of the Upper Colorado River Recovery 
Program is to recover the endangered fish while allowing the States to 
meet their compact entitlements. The Recovery Program is also intended 
to serve as a reasonable and prudent alternative for water depletion 
impacts in the Upper Colorado River Basin. The specific purpose of the 
programmatic biological opinion is to determine the degree to which the 
recovery program can serve as the reasonable and prudent alternative 
for historic and new depletions, considering the status of the fish 
populations and the recovery program accomplishments. At this time, the 
Service has not made a final determination on this issue. While the 
biological opinion being developed must be consistent with the 
requirements of the Endangered Species Act, I believe we can protect 
species while still protecting Colorado's allocation.

    Question 4. Eventually, State and Federal contributions to this 
project will be about an additional $100 million. I've heard some 
complaints that Fish and Wildlife is not accepting this program as an 
acceptable method of meeting Section 7 consultation requirements. Can 
you give me some assurances that you will review this program with the 
goal of ensuring it provides certainty to those on the Colorado River 
and its tributaries?

    Answer. The Fish and Wildlife Service has consulted on nearly 300 
water development projects in the Upper Colorado River Basin since the 
inception of the Recovery Program in 1988. The biological opinions for 
each of these projects have identified reasonable and prudent 
alternatives that allow the projects to go forward but successfully 
offset the environmental impacts. It is difficult to continue to 
deplete water from a river system while trying to recover fish species 
that depend on the same water. However, all parties have done an 
admirable job so far, and I expect this to continue into the future. I 
will continue to work closely with the Service's Denver Regional Office 
to ensure that the Program continues to function smoothly.

    Question 5. Will the new Animas-LaPlata project require any type of 
consultation with Fish and Wildlife?

    Answer. That will have to be determined as the new project plan is 
developed. The Service completed a biological opinion on the Animas-
LaPlata project several years ago based on the planned project at that 
time. If the future project is significantly different from the planned 
project that the previous biological opinion addressed, a revised or 
new biological opinion may be required.

                                 ______
                                 
         Responses to Additional Questions From Senator Inhofe
    Question 1. What do you see as the proper role of the State in the 
NRD process?

    Answer. Each State shares trustee responsibility with the U.S. 
Department of the Interior through the U.S. Fish and Wildlife Service, 
other Federal natural resource management agencies, and tribes. States, 
in partnership with all affected natural resource trustees, are working 
cooperatively and collectively to evaluate and quantify injuries to 
fish, wildlife and other natural resources and to secure restoration of 
injured natural resources. Working in partnership, states, tribes, and 
Federal natural resource trustees provide the best assurance for 
success in protecting and restoring injured resources.

    Question 2. What options would you consider to provide States with 
greater opportunities to manage cleanups of sites within their borders 
and to promote their pursuit of innovative and cost-effective 
restoration programs?

    Answer. States are encouraged to continue their cooperative 
technical assistance efforts among state, tribal and Federal 
organizations responsible for both the cleanup of the site and 
protection and restoration of natural resources, as a proven and 
effective way to ensure that the risks to both human health and 
ecological resources within individual State borders are evaluated 
thoroughly during remediation. We have a successful track record in 
assisting the EPA and our State partners in selecting response and 
remediation decisions that consider and protect fish and wildlife 
resources. We are pursuing opportunities for closer coordination of 
remediation and restoration activities. EPA is aggressively seeking our 
help and the Service stands ready to provide technical assistance to 
both the EPA and individual States during response and remediation 
decisionmaking to protect fish and wildlife resources. As you know, the 
EPA works with States directly to establish remediation goals. 
Increasingly, the Service has provided technical advice that has 
resulted in the reduction of Natural Resource Damage (NRD) liability by 
helping the EPA or the State to identify and/or select response and 
remediation techniques and strategies that result in accelerated 
restoration of injured resources.

    Question 3. A number of states have established programs under 
which entities that successfully complete voluntary and mandatory 
remediation actions are released from liability for damages under State 
environmental laws. As a result of Pennsylvania's model program, for 
example, 64 sites have been cleaned up since establishment of the 
program in July 1996, compared with 8 of the 103 Superfund sites 
located in Pennsylvania that have been cleaned up over the course of 
Superfund's 16 year history. As the Director of the Fish and Wildlife 
Service, would you support a parallel statutory release of liability 
under CERCLA for entities that successfully complete remediation 
activities in connection with NRD claims and obtain a release from the 
State?

    Answer. Coordination between the natural resource trustee entities 
of the Federal and State jurisdictions currently provide protection to 
fish and wildlife species, whether they are resident populations within 
the borders of one or many States as well as for those that migrate 
across State boundaries, making temporary stops within any one 
individual State. It is the migratory nature of many fish and wildlife 
resources and the interstate commerce relationship that created Federal 
protective statutes that currently exceed any one individual State's 
ability to protect such species during all phases of their migration. 
It is this Federal responsibility for protecting migratory fish and 
wildlife that serves as a strong complement to every State authority 
exercised within their sovereign boundaries. This State and Federal 
partnership affords our Nation's fish and wildlife resources their 
maximum stewardship and protection not only in any one State, but 
throughout entire Regions and flyways. We currently have very strong 
working relationships with many of our State natural resource trustees, 
and we do currently evaluate NRD liability at particular sites 
collectively. As such, when we jointly release a Responsible Party from 
NRD liability or grant a covenant-not-to-sue, it is our collective 
finding that binds both the State and the Federal Governments. For 
these reasons, our greatest strengths and abilities to protect fish and 
wildlife resources are afforded by building strong and complementary 
partnerships between State and Federal natural resource trustees, 
rather than by abrogating our Federal protective mandates through 
exclusion of Federal partners from such extensive State decisions.

    Question 4. What plans do you have to ensure that the damage 
assessment process does not result in the unnecessary duplication of 
work by State and Federal entities?

    Answer. The U.S. Fish and Wildlife Service has a strong history of 
entering into formal trustee agreements with many of our State and 
Federal partners to secure cooperative damage assessments and NRD 
claims. By entering into such trustee agreements as early as possible 
during the pre-assessment phase of the NRD process, all participants 
can share information early, plan necessary investigations 
cooperatively to take advantage of shared resources, and execute 
investigations synergistically to avoid duplicative sampling or 
studies. We have also encouraged our State and other Federal trustees 
to join us in settlement negotiations. We in the FWS have been 
coordinating with our State and Federal partners since the beginning of 
the NRD program. We have been able to stretch limited resources with 
partnership planning and investigations that have yielded mutually 
beneficial results for cooperative NRD negotiations. Examples of such 
successful partnerships include settlements for the Tenyo Maru, the 
Cantara Loop, and Apex Houston Oil Spills.
    The Service takes CERCLA's coordination requirement very seriously. 
It was designed to provide safeguards against inconsistencies and 
conflicts in both remediation and restoration decisionmaking. Memoranda 
of Understanding are in place to ensure effective coordination between 
both State and Federal entities on these decisions. Additionally, in 
most EPA Regions there are Biological Technical Assistance Groups 
(BTAGs) composed of scientists from resource management agencies, 
including the States, that work closely with EPA when EPA conducts 
ecological risk assessments and cleanups. As Director of the U.S. Fish 
and Wildlife Service, I will continue to encourage the cooperative 
efforts currently enjoyed by the Service's NRD program through its 
formal cooperative trustee agreements with its other Federal and State 
partners, through cooperative contaminant investigations, through 
encouraging public involvement in NRD restoration, and by continuing 
the Service's technical assistance capabilities and opportunities. 
Further, I will commit myself to ensure there is no duplication of work 
by State and Federal entities.

    Question 5. What changes or measures would you suggest to increase 
the level of cooperation between State and Federal officials?

    Answer. The Service has a long tradition of working closely on NRD 
issues with our State, tribal and Federal partners. Cooperation could 
be greatly increased through encouraging more informal and formal 
communication and sharing of information and expertise. The Service is 
an avid supporter of State cooperative associations and contributes to 
and hosts symposia, conferences, and issue initiatives that provide 
informal forums for mutual exchange of information and concerns. I will 
continue to support working relationships solidified through personnel 
exchanges, such as IPA's, through shared training opportunities among 
our National Conservation Training Center and State counterparts, and 
through partnered investigations designed to address operational fish 
and wildlife issues affecting a broad spectrum of State and Federal 
interests. Also, I believe that we can share natural resource data 
bases, such as Geographic Information Systems, that are beneficial and 
are applicable to a multitude of uses and analyses. The benefits of 
using common data bases are immense in terms of consistent claims, 
reducing costs, increasing knowledge base among trustees and PRP's, and 
expediting settlement and restoration decisions.

    Question 6. What steps would you take to support efforts by the 
State to reach an expeditious settlement of State claims with PRP's in 
order to proceed quickly to the restoration stage?

    Answer. The U.S. Fish and Wildlife Service currently works 
cooperatively with many of its State and Federal partners to avoid 
injury to fish and wildlife resources during response and remediation 
actions to minimize restoration challenges after cleanup is achieved. 
If after cleanup, restoration actions are necessary, these actions are 
pursued as quickly as resources allow in order to provide favorable 
conditions for the injured resources to return to the State they would 
have been in had the release not occurred. I firmly believe that the 
current cooperative nature of the NRD Program is the quickest way to 
achieve cost-effective restoration. Cooperation assures not only the 
State and Federal trustees that their collective concerns are met, but 
also provides the PRP with certainty that all affected parties are 
incorporated into the hazardous waste cleanup and site restoration, 
thereby effectively negating surprises during planning and 
implementation phases of the process.

    Question 7. Do you support the listing of the Fox River/Green Bay 
area on the NPL?

    Answer. Yes, this area is highly contaminated with PCB's, with 
injuries to fish and wildlife resources documented for over 30 years. 
There have been fish consumption advisories on this site for many years 
because the State of Wisconsin has concluded that there is a risk to 
human health. The listing of the site by EPA will enable issues of risk 
to human health and the environment to be addressed in the remediation 
process. The NPL process will assist in identifying the most cost-
effective solutions to the cleanup and provide incentives for the PRPs 
to participate in a more significant way. We plan to work closely with 
EPA to seek consistency, to the greatest extent possible, of 
remediation and restoration activities.

    Question 8. Was DOI consulted by EPA with respect to the proposed 
listing? What position did it take?

    Answer. Yes. The Department supported the listing.

    Question 9. How would the listing affect voluntary efforts that are 
underway as a result of the January 1997 agreement?

    Answer. It will help this effort by adding more financial resources 
and expertise from EPA to the cleanup. It also will provide additional 
incentives for the PRPs to make commitments to cleanup the river. All 
parties agree that a negotiated settlement based on a voluntary cleanup 
is preferable to litigation. The NPL listing will provide additional 
certainty that the Fox River will actually get cleaned up and restored. 
The Service will continue to support all parties working together, and 
has agreed to work cooperatively with the State, EPA and the 2 tribes 
in a Memorandum of Agreement which was signed on July 11, 1997.

    Question 10. Is the NPL listing just another way to assert Federal 
control over the restoration process?

    Answer. No. Efforts to date have focused on restoration of natural 
resources but not remediation of the river. NPL listing will bring EPA 
to the site to oversee the remediation process. It is in the public's 
best interest, as well as in the interest of the Responsible Parties, 
for all relevant units of government to be involved in addressing this 
problem so that all cleanup and restoration issues can be resolved. The 
Federal Government is an affected and interested party in this matter. 
The NPL process will introduce certainty that progress will be made in 
responding to threats to human health and the environment and injuries 
to natural resources.
                                 ______
                                 
          Responses to Additional Questions From Senator Boxer
    Question 1. How will establishment of a regional office in 
Sacramento improve service to California?

    Answer. The establishment of a regional office in Sacramento will 
greatly improve service delivery in California and Nevada. The 
reorganization will provide additional service to the public and the 
Service's many other customers and partners to meet their needs in the 
increasingly complex natural resource environment facing California and 
Nevada. In particular, improved services to the public are needed for 
the Bay/Delta restoration initiative, the recovery of endangered 
species, meeting the demand for habitat conservation planning 
assistance, restoring habitats injured by spills of oil or hazardous 
substances, and meeting the rapidly increasing expectations for Service 
refuge and fisheries facilities. California is already home to more 
than 30 million people, and is projected to grow by more than 58 
percent by the year 2020. Growth in metropolitan areas of Nevada has 
been similarly explosive.
    Currently, Region 11, based in Portland, Oregon, has a workload 
greater than any other region in the country. Even with the creation of 
a new region, the workload in California and Nevada will exceed those 
of many other regions. For example, California alone has about 20 
percent of the nation's listed species and about 10 percent of the 
nation's recovery plans for listed species. The 109 listed species in 
California and Nevada comprise 24 percent of the species that need 
recovery plans in the future. In addition, California and Nevada have 
been national leaders in the development of Habitat Conservation Plans. 
The Service is responsible for 112 Habitat Conservation Plans in 
various stages of development in those two states and must monitor the 
approved plans; this workload far exceeds that of any other region. The 
Sacramento office will also serve more than three million acres of 
refuge properties within California and Nevada; once again more refuge 
land than many other regions. The establishment of a regional office in 
Sacramento will improve services by placing a dedicated Regional 
Director on the ground in California; streamlining review of section 7 
consultations; streamlining approval of Habitat Conservation Plans; and 
providing a quicker response to damages. In sum, the Service 
decisionmakers will be closer to the customers that the agency serves 
and the office will be better staffed to meet the current and future 
needs of those customers.

    Question 2. What is the Service doing to shorten the review times 
for environmental analysis?

    Answer. The Service has taken several steps to shorten the review 
times for environmental analysis. The Service's current National 
Environmental Policy Act (NEPA) procedures encourage agency personnel 
to use streamlining techniques, such as scoping of alternatives and 
impact, incorporation by reference, joint process (i.e., public reviews 
and joint documents) with other Federal and State agencies, and the 
establishment of cooperative agency agreements in planning and 
decisionmaking of Service actions. In January 1997, the Service revised 
its NEPA procedures to expand and update the list of categorical 
exclusions (actions not requiring the preparation of environmental 
analyses) and to identify more instances when environmental 
assessments, rather than environmental impact statements, are 
appropriate. These improvements effectively shorten the time periods 
for agency decisionmaking, while still providing consideration of 
alternatives and analysis of Service proposals and permit approvals 
where environmental impacts are anticipated. The Service has also 
developed NEPA training courses for Service personnel, conducted by the 
Service's National Conservation Training Center, in Shepherdstown, WV, 
that provide instruction on streamlining techniques for Service 
activities, including section 10 habitat conservation plans, refuge 
comprehensive management planning, and grants programs. Over 200 
Service employees are training annually in this effort.

    Question 3. Are there any species in California being considered 
for listing?

    Answer. Yes. A total of 28 candidates are being considered for 
Federal listing in California. Candidate species are plants and animals 
for which the Fish and Wildlife Service has sufficient information on 
their biological status and threats to propose them for listing as 
endangered or threatened under the Endangered Species Act. However, 
development of a proposed listing regulation is precluded by other 
higher priority listing activities. The candidate species in California 
include:

    Amole, Cammatta Canyon
    Amole, Purple
    Buckwheat, Ione
    Buckwheat, Irish Hill
    Buckwheat, Red Mountain
    Campion, Red Mountain
    Checkerbloom, Keck' s
    Checkerbloom, Parish's
    Chub, Cowhead Lake
    Larkspur, yellow
    Larkspur, Baker's
    Lathyrus, tow-flowered
    Lupine, Nipomo Mesa
    Manznita, Ione
    Penny-cress, Kneeland Prairie
    Phlox, Yreka
    Rabbit, riparian brush
    Rat, San Bernardino Kangaroo
    Salamander, California tiger
    San-verbena, Ramshaw
    Shrew, Bueana Vista Lake
    Stonecrop, Read Mountain
    Tarweed, Santa Cruz
    Tarweed, Gaviota
    Thistle, La Graciosa
    Trout, McCloud River redband
    Woodrat, San Joaquin Valley
    Yerba santa, Lompoc

    A total of 54 species have been proposed for Federal listing as 
endangered or threatened under the Endangered Species Act in 
California, and await final decisions. The proposed species include:

    Adobe-lily, Greenhorn
    Allocarya, Calistoga
    Alumroot, island
    Bear-grass, Dehesa
    Bird's-beak, soft
    Bluecurls, Hidden Lake
    Bluegrass, Napa
    Bluegrass, San Bernardino
    Brodiaea, Chinese Camp
    Brodiaea, thread-leaved
    Buckwheat, Irish Hill
    Buckwheat, Ione
    Buckwheat, southern mountain
    Butterfly, callippe silverspot
    Butterfly, Behren's silverspot
    Carpenteria
    Ceanothus, Vail Lake
    Checker-mallow, Kenwood Marsh
    Cinquefoil, Hickman's
    Clarkia, Springville
    Clarkia, Vine Hill
    Crownscale, San Jacinto
    Cypress, Gowen
    Dandelion, California
    Dudleya, munchkin
    Dudleya, Santa Cruz Island
    Dudleya, Santa Rosa Island
    Flannelbush, Mexican
    Larkspur, Baker's
    Larkspur, yellow
    Lily, Pitkin Marsh
    Lupine, Mariposa
    Manzanita, Ione
    Manzanita, pallid
    Milk-vetch, Clara Hunt's
    Monkeyflower, Kelso Creek
    Mountain-mahogany, Catalina
    Navarretia, Piute Mountains
    Navarretia, prostrate
    Paintbrush, ash-grey
    Phlox, Yreka
    Piperia, Yadon's
    Pussypaws, Mariposa
    Rattleweed, coastal dunes
    Rock-cress, island
    Rock-cress, Johnston's
    Sandwort, Bear Valley
    Sedge, white
    Sheep, bighorn (Peninsular)
    Splittail, Sacramento
    Thistle, Suisun
    Valley Barberry, Nevin's
    Whipsnake, Alameda
    Woodland star, San Clemente Island
                                 ______
                                 
          Responses to Additional Questions From Senator Smith
    Question 1(a). As the Chairman of the Senate Superfund, Waste 
Control and Risk Assessment Subcommittee, I am interested in knowing 
your views on the Natural Resources Damages (NRD) program of CERCLA and 
how you, as part of the Federal trustee team, would work with PRPs and 
State trustees to restore confidence in the NRD program. As such, I 
request that you respond to the following questions:
    According to the April 1996 GAO report on natural resource damage 
settlements, as of April 1995, $33.9 million had been collected through 
settlements in the five largest natural resource damages (NRD) cases 
but only $3.6 million had been spent. The GAO found, however, that 
expenditures had gone ``mostly to reimburse trustees for performing 
past damage assessments and to pay for preparing natural resource 
restoration plans. With the exception of one small experimental 
restoration project, no restoration actions had been taken with the 
moneys collected as of July 1995.''
    A follow-up GAO report issued in November 1996 reported that 
settlements had been reached at 62 sites in addition to the five large 
NRD settlements discussed in the first report. Only 19 percent of the 
funds collected from these 62 settlements had been allocated for 
performing damage assessments, planning or restoration. Further, as of 
July 1996, restoration had been completed at only one site.
    Can you explain why more actual restoration work has not taken 
place?

    Answer. It is important to note that the NRD process is still 
relatively new. We did not receive appropriations until Fiscal Year 
1992 and we were developing guidance and procedures to implement these 
important Congressional mandates. As settlements are received and 
cooperative working relationship between the State and Federal trustees 
develop, the U.S. Fish and Wildlife Service (FWS or Service) is moving 
into an era of undertaking actual restoration work. I would agree that 
the pace of spending on actual restoration needs to increase. I am 
informed that since the release of the GAO Report, additional funds 
have been allocated to assessment and restoration work at a number of 
sites, including the following sites listed in the GAO report: Applied 
Environmental Services, New York; Army Creek Landfill, Delaware; Bunker 
Hill Mine, Idaho; Charles George Reclamation Landfill, Massachusetts; 
Coker's Sanitation Service Landfills, Delaware; Crab Orchard NWR, 
Illinois; Douglass Road/Uniroyal Inc., Landfill, Indiana; Hi View 
Terrace, New York; Jack's Creek/Sitkin Smelting and Refinery, 
Pennsylvania; Saegertown Industrial Area, Pennsylvania; Sharon Steel 
Corp., Utah; Southern Ohio Coal, Ohio; and Wide Beach Development, New 
York. Of the $27.1 million identified as collected settlements in the 
November 1996 GAO report, a total of $9,162,243, or 34 percent, has 
been allocated as of July 1997. This is compared with 19 percent 
allocated as of July 1996.
    Restoration planning is underway at a number of these sites, 
including the Applied Environmental Services, Crab Orchard NWR, Hi View 
Terrace and Wide Beach Development Sites. Since the GAO Report, 
Restoration Plans have been completed for a number of sites including 
the Douglass Road Site (Indiana), the Fisher-Calo Chemical Site 
(Indiana), the Fish Creek Oil Spill (Indiana), the Envirochem, 
Northside Landfill, and Great Lakes Asphalt Sites (Indiana), and the 
Coakley Landfill (New Hampshire). Restoration work at these sites will 
commence in the near future as working relationships are formalized, 
contracts are negotiated and released, and construction begins.
    It is important to note that the GAO report to which you refer 
focuses strictly on restoration activities for which damages under 
CERCLA were collected and deposited to the Department's Natural 
Resource Damage Assessment and Restoration (NRDAR) Fund. Because of 
this limitation, the report omits a number of restoration projects 
undertaken as a result of the Service's involvement. These settlement 
dollars have been deposited in court registry accounts or represent 
``in-kind'' settlements where Responsible Parties (RPs) actually 
perform the restoration action under a consent decree or administrative 
order. Also, the report does not include restoration projects which 
have been undertaken pursuant to the Oil Pollution Act (OPA). One 
example is the Apex Oil Spill (Texas) settlement. At that site the 
Service will participate in a $2.2 million dollar project that will 
restore and enhance nearly 750 acres of wetland and aquatic habitat. 
Another example of such work is the Motco Superfund Site (Texas) where 
the RPs created a replacement salt marsh that is now managed as a local 
park. The GAO report also does not include restoration projects 
undertaken by the RPs either as part of the remediation process in 
cooperation with the EPA or undertaken by the RPs at the request of the 
trustees to resolve natural resource damage claims. Two examples of 
such projects are the purchase and enhancement of about 80 acres of 
wetland to resolve a NRD claim for a site in Ohio, and the creation of 
a marsh by the RPs at the Wildcat Landfill (Delaware) to replace one 
that was filled in the remedial process. These projects, which were 
excluded in the GAO report, represent a significant bulk of settlements 
in terms of dollars and benefits to the natural resources and the 
public.

    Question 1(b). As Director of the U.S. Fish and Wildlife Service, 
what steps would you take to expedite the pace of initiating 
restoration projects under the NRD program?

    Answer. The Service is now moving into an era of implementing 
restoration projects. By building upon our past successes, we have 
increased the pace of our restoration program. We have greater 
experience with various restoration techniques that can be applied to 
new sites. In addition, we have existing Memoranda of Agreement, 
funding mechanisms, and cooperative working relationships with RPs, 
other natural resource trustees, conservation organizations, and other 
government agencies that provide technical expertise and logistical 
support. We can use these tools to get new projects off the ground 
faster and in a more focused fashion to the benefit of the natural 
resources and the public.

    Question 2(a). According to the April 1996 GAO report, agency 
officials have explained ``that restoration had not begun at sites 
because of continuing litigation, the need to coordinate with the 
Environmental Protection Agency's cleanup process and other site-
specific reasons.''
    What actions has the agency taken in the past year to respond to 
the GAO report's findings?

    Answer. As manager of the Department of the Interior's NRDAR Fund, 
the FWS has implemented a number of reforms which will ultimately 
improve the pace of restorations at NRD sites. These reforms, which 
focus on improving communications and providing project funding faster 
and more efficiently, include the following:
    <bullet> Streamlined the approval process required for release of 
restoration funds from the Departmental NRDAR Fund. Approval and 
release of funds can now occur in days, compared to weeks and even 
months previously;
    <bullet> Provided training to field staff on simplified mechanics 
of NRDAR Fund, with an emphasis on required documentation and how to 
request a release of restoration funds. Delays caused by inadequate 
documentation have been reduced significantly;
    <bullet> Clarified that reasonable restoration planning costs can 
be funded from restoration settlements. Earlier Fund guidance 
discouraged use of settlement dollars for planning purposes and, as a 
result, restorations were delayed. Since the policy change, restoration 
planning efforts have increased substantially;
    <bullet> Improved communications between Fund managers and field 
staff. Field and regional staff are now notified on monthly basis of 
all settlements and payments received and interest earned; and
    <bullet> Improved working relationships with Justice, EPA, and NOAA 
financial staffs in order to more quickly identify and resolve problems 
in carrying out financial terms of settlements.

    Question 2(b) What plans, if any, do you have to decrease the 
amount of litigation and delay that currently plagues the NRD program?

    Answer. I will continue to support Service efforts to encourage 
meaningful involvement from the PRPs, as well as other Federal, State, 
and tribal entities early on in the NRD process. To date, the Service 
has secured several negotiated settlements with PRPs resulting in 
settlements that have staved off litigation. Involvement by all 
interested parties early in the process helps ensure fair and equitable 
treatment of all affected parties and helps limit litigation and 
unwarranted delays.
    Further, the FWS was instrumental in developing a funding mechanism 
within the NRDAR Fund to allow Bureaus to work more cooperatively with 
RPs in conducting damage assessments. Under the recently approved 
process it is easier to conduct RP-funded cooperative assessments, 
provide RP's an opportunity to participate in and influence what 
studies are conducted, and decrease the likelihood of contentious 
litigation, since both sides will share a common source of data.
    An effort to revise existing authorizing language in the 
Department's NRDAR account is presently before Congress. The proposed 
changes seek to clarify the authority of the NRDAR fund to administer 
joint NRD recoveries by being able to transfer settlement receipts to 
other non-Interior and State trustees to implement joint restoration 
plans. Congressional approval of the requested changes will help remove 
obstacles to cooperative restoration efforts and will improve 
relationships with State trustees. I believe this will ultimately speed 
up the pace of restorations.
    Lastly, I support the proposal submitted last October by the 
Administration that outlined reforms for the natural resource damage 
(NRD) provisions of CERCLA. The proposed reforms were designed to 
reduce litigation and expedite restoration. Also, they were 
specifically designed to shift the emphasis away from spending money on 
litigation and to focus instead on spending money on restoration of 
injured natural resources. This shift was in response to concerns that 
too much time and money were spent on damage assessment and not enough 
emphasis was placed on restoring injured resources. I will continue to 
support such reforms designed to improve the NRD program by providing 
greater clarity concerning restoration, by assuring more timely and 
more orderly presentation of claims and by discouraging premature 
litigation.

    Question 3(a). Regarding the Fox River site in Green Bay, 
Wisconsin, I understand that Federal, State and tribal trustees met on 
a number of occasions to attempt to reach agreement on division of 
responsibilities for the damage assessments to be performed and on the 
designation of a lead authorized official but were unable to come to an 
agreement. I understand further that in light of the failure to reach 
agreement, State officials asserted their authority to serve as the 
lead authority for State natural resources and on January 31, 1997, 
entered into an agreement with the PRPs, who contributed $10 million 
for resources assessment and restoration projects.
    What steps could we expect you to take to support the State of 
Wisconsin's effort to reduce transaction costs and cooperate with PRPs 
to address natural resource damage without protracted and expensive 
litigation?

    Answer. This question, as well as some of the following questions 
regarding the Fox River have been overtaken by events. The Service 
initiated the effort to work with the State of Wisconsin to address 
natural resource damage in the Fox River/Green Bay environment using a 
collaborative approach. Initially, the Governor elected not to 
participate. However, in the fall of 1996, we were able to begin 
discussions at the staff level regarding how to work together on this 
problem. We have always stated our preference to resolve natural 
resource damage issues through negotiation rather than litigation. This 
culminated in a July 11, 1997 agreement signed by the FWS (representing 
DOI), 2 tribes, NOAA, EPA and the State of Wisconsin to work together 
by blending the State activities, the FWS NRDA activities and EPA's 
activities into one process--with a firm pledge to work together for 
the public benefit. I am confident this process will result in a 
complete solution to cleanup, restoration and compensation for lost 
resource values of the Fox River and Green Bay area. It is our hope 
that this joint governmental effort, which has been DOI's goal, will 
result in a negotiated settlement with the PRPs that will avoid 
litigation.

    Question 3(b). It is my understanding that the parties to the Fox 
River agreement have encouraged the participation and involvement of 
the Federal Government in their efforts and have specifically invited 
the Federal Government to become a party to the agreement reached in 
January. Is that correct? What was your involvement in that decision?

    Answer. The DOI was not involved in the development of the State/
company agreement that was signed in January. It was signed without any 
consultation with the DOI, EPA or the tribes that have trusteeship for 
natural resources. The agreement contains provisions that are 
unacceptable to the Federal and tribal trustees and would need to be 
substantially modified. While the agreement contains a commitment for a 
$10 million down payment in order to begin cleanup, this is a very 
small commitment given the magnitude of the problem. However, it is a 
start and we support any effort to begin to cleanup the river and bay.

    Question 3(c). Is it true that the Department of the Interior has 
refused to participate in this agreement and decided to conduct its own 
assessment even though it will cover virtually the same resources 
already being addressed by the State and the PRPs under the terms of 
the agreement?

    Answer. It is not true that DOI has refused to participate in the 
agreement and decided to conduct its own assessment. The Interior 
Department initiated the Natural Resources Damage Assessment (NRDA) 
process years ago and invited the State of Wisconsin to participate. 
Although the Governor initially declined, we have continued to reach 
out to the State to work with us as joint natural resource trustees. 
This goal has been achieved as evidenced by our signing an agreement 
with the State on July 11, 1997. The assessment called for in the 
State/company agreement is limited in scope, and currently not well 
defined. Given the potential for duplication of effort with the Federal 
NRDA, we have agreed to work with the State to coordinate our 
assessment activities through a NRDA workgroup authorized under the 
July 11, 1997 Memorandum of Agreement.

    Question 3(d). As Director of the U.S. Fish and Wildlife Service, 
would you advocate becoming a signatory to this agreement? If not, how 
do you plan to pursue assessment and remediation without unnecessarily 
duplicating efforts of the State at the taxpayers' expense?

    Answer. I would consider becoming a signatory to the State/company 
agreement if provisions that are unfavorable to the Federal and tribal 
trustees and the public can be addressed satisfactorily. The Department 
will explore that possibility with the affected parties in the future. 
As explained elsewhere, we have recently entered into a agreement with 
the State to collaborate our efforts to clean up and restore the Fox 
River and Green Bay environment, which should avoid unnecessary 
duplication of effort.

    Question 3(e). In your view, is the Fox River situation one in 
which the Federal Government has supported State efforts to reach a 
negotiated settlement of claims with PRPs in order to move quickly to 
planning and implementing restoration activities?

    Answer. The U.S. Fish and Wildlife Service initiated discussions 
with the State in the fall of 1996 for the purpose of merging State, 
Federal and tribal efforts to achieve a negotiated settlement with the 
PRPs in order to move quickly to cleanup and restore the affected 
environment. The initial idea for a ``downpayment'' came from the 
Service and is reflected in the State/company agreement. The Service 
has always supported the idea of a voluntary cleanup and will continue 
to do so provided there are substantial commitments made by the PRPs 
toward cleanup and restoration.

    Question 3(f). What steps do you intend to take to resolve the 
differences between the Administration and the State of Wisconsin?

    Answer. As previously stated, the Department of the Interior signed 
an agreement with the State of Wisconsin on July 11, 1997 which forges 
a new partnership to work together to cleanup and restore the Fox River 
and the affected environment.

    Question 4(a). It is my understanding that EPA Region V is engaged 
in a process that would lead to the NPL listing of Fox River, despite 
the explicit and vigorous objection of Wisconsin Governor Tommy 
Thompson.
    Wouldn't a NPL listing simply require the devotion of additional 
time and resources to administrative activities rather than accelerate 
the cleanup/restoration process?

    Answer. A NPL listing proposal will bring additional Federal 
resources to the table to plan and implement the cleanup. EPA has 
stated that NPL listing will accelerate the cleanup/restoration 
process. It may also accelerate the commitments of the PRPs to the 
State's voluntary program so that regulatory or legal actions in the 
future by either EPA or DOI are minimized or avoided.

    Question 4(b). What steps could we expect you to take to prevent 
further delay of restoration activities as a result of the proposed 
listing?

    Answer: The DOI will be working hard through the new committees 
established by the MOA to support the cleanup and restoration efforts. 
We do not see the proposed listing as slowing down or delaying the 
ability of the PRPs to commit substantial resources to voluntarily 
cleanup and restore the river and affected environment. As stated 
above, we believe the proposed NPL listing will accelerate the 
cleanup--not delay it.
         Response to Additional Question From Senator Sessions
    Question. I understand there have been some administrative problems 
with the implementation of the Endangered Species Act in Alabama with 
species being listed by the Fish and Wildlife Service office in 
Jackson, Mississippi and conservation plans being implemented by the 
Alabama office. As director, do you have any plans which would 
streamline the agency's implementation of the Endangered Species Act?

    Answer. I am not aware of any administrative problems in the 
implementation of the Endangered Species Act in Mississippi and 
Alabama. However, I have asked the Acting Regional Director of the 
Southeast Region to look into this situation.
    Please let me take this opportunity to explain how the Fish and 
Wildlife Service delivers the Endangered Species Program across the 
Nation. The Washington Office Division of Endangered Species provides 
staff support to the Director through the Assistant Director of 
Ecological Services, develops policies for the consistent application 
of the Endangered Species Act, and acts as the liaison and provides 
technical support to the Regional Offices and the field. Regional 
Offices provide direct supervision of the Service's field stations and 
coordinate Service activities with other Regions and between and among 
field stations within their jurisdictional areas. Service Field Offices 
are given the responsibility of working with other Federal agencies, 
State governments, Native American Indian Tribes, industries, farmers 
and ranchers, non-governmental organizations, and the American public 
on endangered species issues.

[GRAPHIC] [TIFF OMITTED] TH151.040

[GRAPHIC] [TIFF OMITTED] TH151.041

[GRAPHIC] [TIFF OMITTED] TH151.042

[GRAPHIC] [TIFF OMITTED] TH151.043

[GRAPHIC] [TIFF OMITTED] TH151.044

[GRAPHIC] [TIFF OMITTED] TH151.045

[GRAPHIC] [TIFF OMITTED] TH151.046

[GRAPHIC] [TIFF OMITTED] TH151.047

</pre></body></html>
